APPENDIX

la
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-56119
D.C. No. 2:15-ml-02668-BRO-JEM
In Re National Football League’s
Sunday Ticket Antitrust Litigation,
Ninth Inning, Inc., DBA The Mucky Duck;
1465 Third Avenue Restaurant Corp.,
DBA Gael Pub; Robert Gary Lippincott, Jr.;
MICHAEL Holinko, an individual, for
himself and all others similarly situated,
Plaintiffs-Appellants,
v.
Directv, LLC; Directv Holdings, LLC;
National Football League, Inc.; NFL
Enterprises, LLC; Arizona Cardinals, Inc.;
Atlanta Falcons Football Club LLC;
Baltimore Ravens, LP; Buffalo Bills, Inc.;
Panthers Football, LLC; Chicago Bears
Football Club, Inc.; Cincinnati Bengals, Inc.;
Cleveland Browns, LLC; Dallas Cowboys
Football Club, Ltd.; Detroit Lions, Inc.;
Green Bay Packers, Inc.; Houston NFL
Holdings, LP; Indianapolis Colts, Inc.;
Jacksonville Jaguars, Ltd.; Kansas City
Chiefs Football Club, Inc.; Miami Dolphins,
Ltd.; Minnesota Vikings Football Club, LLC;
New England Patriots, LP; New Orleans

2a
Louisiana Saints, LLC; New York Football
Giants, Inc.; New York Jets Football Club,
Inc.; Oakland Raiders, LP; Philadelphia
Eagles Football Club, Inc.; Pittsburgh
Steelers Sports, Inc.; San Diego Chargers
Football Co.; San Francisco Forty Niners,
Ltd.; The Rams Football Company, LLC;
Buccaneers, LP; Tennessee Football, Inc.;
Washington Football, Inc.; Football Northwest
LLC; Denver Broncos Football Club,
Defendants-Appellees.
Appeal from the United States District Court
for the Central District of California
Beverly Reid O’Connell, District Judge, Presiding
Argued and Submitted December 7, 2018
Pasadena, California
Filed August 13, 2019
OPINION
Before: Sandra S. Ikuta and
N. Randy Smith, Circuit Judges, and
George Caram Steeh III,* District Judge.
Opinion by Judge Ikuta;
Dissent by Judge N.R. Smith

The Honorable George Caram Steeh III, United States
District Judge for the Eastern District of Michigan, sitting by
designation.

3a
SUMMARY"
Antitrust
The panel reversed the district court’s dismissal for
failure to state a claim of an antitrust action brought
by a putative class of residential and commercial sub­
scribers to DirecTV’s NFL Sunday Ticket, a bundled
package of all NFL games available exclusively to
subscribers of DirecTV’s satellite television service.
Each NFL team entered into a “Teams-NFL Agree­
ment” with the NFL to pool their telecasting rights and
give the NFL the authority to exercise those rights.
Acting on behalf of its teams, the NFL entered into two
additional agreements licensing the teams’ telecast
rights. Under the “NFL-Network Agreement,” CBS and
Fox coordinate to create a single telecast for every
Sunday-afternoon NFL game, and the NFL permits
CBS and Fox to broadcast a limited number of what
are known as local games through free, over-the-air
television. Under the “NFL-DirecTV Agreement,” the
NFL allows DirecTV to obtain all of the live telecasts
produced by CBS and Fox, package those telecasts,
and deliver the bundled feeds to NFL Sunday Ticket
subscribers.
Plaintiffs alleged that defendants’ interlocking agree­
ments work together to suppress competition for the
sale of professional football game telecasts in violation
of §§ 1 and 2 of the Sherman Act.
The panel held that plaintiffs stated a § 1 claim under
the rule of reason because they adequately alleged (1) a
contract, combination, or conspiracy among two or
This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

4a
more persons or business entities; (2) by which the per­
sons or entities intended to harm or restrain trade; (3)
and which actually injured competition; and (4) anti­
trust standing. The first and second elements were
undisputed. As to the third element, the panel held
that, under Nat’l Collegiate Athletic Ass’n v. Bd. of
Regents ofUniv. of Oklahoma, 468 U.S. 85 (1984), plain­
tiffs plausibly alleged that the interlocking agreements
caused injury to competition. As to the fourth element,
it was undisputed that plaintiffs had standing to chal­
lenge the Teams-NFL Agreement and the NFL-DirecTV
Agreement. The panel held that plaintiffs also had
standing to challenge the Teams-NFL Agreement
because they alleged that their injury was caused by a
single conspiracy. The panel concluded that Illinois
Brick, limiting the standing of indirect purchasers, did
not apply.
The panel held that the plaintiffs stated a claim
under § 2 of the Sherman Act in alleging that, by
entering into interlocking agreements, the defendants
conspired to monopolize the market for professional
football telecasts and have monopolized it.
Judge N.R. Smith dissented from Part III(C) of the
majority’s opinion, addressing antitrust standing. Judge
Smith disagreed with the majority’s conclusion that,
because plaintiffs alleged a conspiracy among defend­
ants to limit output, the direct purchaser rule of Illinois
Brick did not apply to plaintiffs’ damages claim related
to the Teams-NFL Agreement.
COUNSEL
Marc M. Seltzer (argued), Susman Godfrey LLP, Los
Angeles, California; Edward Diver, Howard Langer,
and Peter E. Leckman, Langer Grogan & Diver P.C.,

5a
Philadelphia, Pennsylvania; Scott Martin, Hausfeld
LLP, New York, New York; for Plaintiffs-Appellants.
Greg H. Levy (argued), Derek Ludwin, John S.
Playforth, and Sonia Lahr-Pastor, Covington & Burling
LLP, Washington, D.C.; Beth A. Wilkinson, Wilkinson
Walsh & Eskovitz LLP, Washington, D.C.; Sean
Eskovitz, Wilkinson Walsh & Eskovitz LLP, Los
Angeles, California; for Defendants-Appellees.
Craig C. Corbitt, Corbitt Law Office, San Francisco,
California, for Amici Curiae Economists.
OPINION
IKUTA, Circuit Judge:
Every Sunday during football season, millions of
National Football League (NFL) fans tune in to watch
their team play. If they live in the same area as their
favorite team—such as Los Angeles Rams fans who
live in Los Angeles—they can tune into their local Fox
or CBS station to enjoy their team’s game on free, overthe-air television. But if NFL fans happen to live far
away from their favorite team—such as Seattle Seahawks fans residing in Los Angeles—they can watch
every Seahawks game only if they purchase DirecTV’s
NFL Sunday Ticket, a bundled package of all NFL
games available exclusively to subscribers of DirecTV’s
satellite television service.
The plaintiffs, a putative class of Sunday Ticket
subscribers, claim that this arrangement harms NFL
fans because it eliminates competition in the market
for live telecasts of NFL games. Without this arrange­
ment restricting the televising of NFL games, plain­
tiffs argue, the individual teams would create multiple
telecasts of each game and would compete against one
another by distributing telecasts of their games through

6a
various cable, satellite, and internet channels. We
conclude that at this preliminary stage, plaintiffs have
stated a cause of action for a violation of Sections 1 and
2 of the Sherman Act that survives a motion to dismiss.
We therefore reverse the district court’s decision to the
contrary.
I
To analyze the challenged arrangement between the
NFL teams, the NFL, and DirecTV, it is necessary to
understand the history of television broadcasting of
NFL games. The NFL, an association of “separately
owned professional football teams,” was formed in
1920. Am. Needle, Inc. v. Nat’l Football League, 560
U.S. 183, 187 (2010). While the NFL had a rocky first
two decades, its teams gradually became successful.
See U.S. Football League v. Nat’l Football League, 842
F.2d 1335, 1343 (2d Cir. 1988). Indeed, by 1959, a
majority of NFL team owners felt that there was a
“growing interest in professional football and the
healthier financial condition of the NFL teams.” Am.
Football League v. Nat’l Football League, 205 F. Supp.
60, 67 (D. Md. 1962), affd, 323 F.2d 124 (4th Cir.
1963). And as professional football gained popularity,
so did the telecasts of its games.
In the 1950s, the right to telecast NFL games was
“controlled by individual teams,” which independently
licensed the telecasts of their games to television
networks. U.S. Football League, 842 F.2d at 1346.1 For
1 By this time, courts had agreed that sports teams had a
property interest in their games. In Pittsburgh Athletic Co. v.
KQVBroadcasting Co., the leading case on this issue, a radio sta­
tion broadcast play-by-play descriptions of the Pirates’ baseball
games without the consent of the team. 24 F. Supp. 490, 492
(W.D. Pa. 1938). The Pirates sued to enjoin the unauthorized
broadcasts. Id. The district court enjoined the radio station,

7a
example, in 1951, the “Dumont network televised five
regular season games (twelve by 1954), as well as the
championship game each year.” Id. Additionally, in
the mid-1950s, “the Columbia Broadcasting System
(‘CBS’) began broadcasting certain NFL regular sea­
son games for $1.8 million per year, and the National
Broadcasting Company (‘NBC’) acquired the right to
televise the NFL championship game.” Id.
Concerned that too much competition between the
teams in the market for broadcast rights might drive
some teams out of business, the NFL amended its 1951
bylaws to address this issue. In Article X of the bylaws,
the NFL required each NFL team to agree to minimize
competition by refraining from telecasting its games
into another team’s local market whenever that local
team was either playing at home or broadcasting its
away game in its local territory.2 United States v. Nat’l

holding that the baseball team, “by reason of its creation of the
game, its control of the park, and its restriction of the dissemina­
tion of news therefrom, has a property right in such news, and
the right to control the use thereof for a reasonable time following
the games.” Id. ) see Nat’l Exhibition Co. v. Fass, 133 N.Y.S.2d 379,
380 (Sup. Ct. 1954) (enjoining the “defendant from the unauthor­
ized transmission, subsequently broadcast, of detailed accounts
of games”); Sw. Broad. Co. v. Oil Ctr. Broad. Co., 210 S.W.2d 230,
234 (Tex. Civ. App. 1947) (granting an injunction to prevent a
radio broadcaster from broadcasting play-by-play accounts of
football games); cf. Zacchini v. Scripps-Howard Broad. Co., 433
U.S. 562, 575 (1977) (citing Pittsburgh Athletic Co., 24 F. Supp.
at 490).
2 Article X would have prevented, for example, the New Eng­
land Patriots from broadcasting their game against the Minne­
sota Vikings within 75 miles of Washington, D.C. when the
Washington Redskins were either (1) playing at home or (2)
playing an away game but telecasting that game in Washington,
D.C. See NFL I, 116 F. Supp. at 325.

8a
Football League, 116 F. Supp. 319, 321 (E.D. Pa. 1953)
(NFL I).
In 1951, the Justice Department brought suit in dis­
trict court to enjoin enforcement of Article X, alleging
that it violated Section 1 of the Sherman Act. Id. at
321. After a bench trial, Judge Grim held that the NFL
could restrict the broadcast of distant games into home
territories in order to protect attendance for the local
team’s game without violating antitrust law. Id. at
325-26. Because “primarily all of NFL revenues were
derived from gate receipts,” protecting live attendance
at NFL games was important to the league’s success.
H.R. Rep. No. 93-483 at 5 (1973), reprinted in 1973
U.S.C.C.A.N. 2032, 2035; see NFL I, 116 F. Supp. at
325. However, the NFL could not restrict teams from
broadcasting their games into another team’s local
market when that team was playing away games. NFL
I, 116 F. Supp. at 326—27. Such a restriction, Judge
Grim held, would be an impermissible restraint of
trade that violated the Sherman Act. Id. at 327. Judge
Grim therefore enjoined the NFL teams from entering
into a contract that restricts “the sale of rights for the
telecasting of outside games in club’s home territory
on a day when the home club is permitting the telecast
of its away game in its home territory.” Id. at 330.
The NFL did not appeal the 1953 injunction imposed
by NFL I, which remained in force until Congress
addressed the issue. “For a number of years after the
1953 decision, the broadcasting practices of the mem­
ber clubs of the National Football League stabilized.”
H.R. Rep. No. 93-483 at 4 (1973). The individual NFL
teams competed against each other on the field and in
the market for telecasting rights. Indeed, “[b]y the late
1950s, eleven individual teams had signed contracts
with the Columbia Broadcasting System; two teams—

9a
Baltimore and Pittsburgh—had signed contracts with
the National Broadcasting Company; and one team—
Cleveland—had organized its own network.” Id.
This changed when the NFL began to face competi­
tion from its newly formed rival, the American Football
League (AFL). While the NFL was precluded under
NFL I from restricting the sale of telecasts, the AFL
was not. Id. at 2034. As a result, the AFL “entered into
league-wide television contracts,” id., and pooled its
television rights and revenues in a broadcast contract
with ABC, U.S. Football League, 842 F.2d at 1346.
In light of this disparity with the AFL, and out of
concern “that the league’s competitive balance on the
field would eventually be destroyed if teams in major
television markets continued to sell their broadcast
rights individually,” in 1961, the NFL teams also decid­
ed “to sell their collective television rights as a single
package and to share broadcast revenues equally
among all franchises.” Id. (quoting the testimony of
Commissioner Rozelle). In 1961, the NFL filed a
petition with Judge Grim seeking to implement a new
television contract between the NFL and CBS. United
States v. Nat’l Football League, 196 F. Supp. 445, 447
(E.D. Pa. 1961) (NFL II). Under the terms of the NFLCBS contract, the NFL teams would pool their televi­
sion rights in the NFL and then the NFL would jointly
sell those rights to CBS. Id. at 446-47. Judge Grim
denied the petition, holding that the proposed agree­
ment violated the 1953 injunction because if the agree­
ment went into effect, “the member clubs of the League
[would] have eliminated competition among them­
selves in the sale of television rights to their games.”
Id. at 447. Judge Grim therefore issued a second
injunction (the 1961 injunction) enjoining the imple-

10a
mentation of the pooled rights contract between NFL
and CBS. Id.
Rather than appeal the 1961 injunction, the NFL
sought Congressional relief. In response to the NFL’s
lobbying, Congress passed the Sports Broadcasting
Act (SBA), which “was specifically designed to estab­
lish parity between the National Football League and
the American Football League.” H.R. Rep. No. 93-483
at 5 (1973). The SBA effectively overruled NFL II,
providing:
The antitrust laws, as defined in section 1 of
the [Sherman] Act. . . shall not apply to any
joint agreement by or among persons engaging
in or conducting the organized professional
team sports of football, baseball, basketball,
or hockey, by which any league of clubs par­
ticipating in professional football, baseball,
basketball, or hockey contests sells or other­
wise transfers all or any part of the rights of
such league’s member clubs in the sponsored
telecasting of the games of football, baseball,
basketball, or hockey, as the case may be,
engaged in or conducted by such clubs.
15 U.S.C. § 1291. Thus, the SBA provides a tailored
exemption for “professional team sports” to sell their
rights to “sponsored telecasts” through a joint agree­
ment. Id. In passing the SBA, Congress recognized
“that agreements among league members to sell tel­
evision rights in a cooperative fashion could run afoul
of the Sherman Act,” and that therefore an exemption
from Section 1 of the Sherman Act was required. Natl
Collegiate Athletic Ass’n v. Bd. of Regents of Univ. of
Oklahoma, 468 U.S. 85, 104 n.28 (1984) (NCAA).

11a
For the next 25 years, the NFL teams pooled their
telecasting rights to their games and sold them as a
single package through free, over-the-air television.
See In the Matter of Implementation of Section 26 of
the Cable Television Consumer Protection & Competi­
tion Act of 1992, 8 F.C.C. Red. 4875, 4879-80 (1993).
Because the SBA applied only to professional sports
leagues, it did not apply to college football, which con­
tinued to be subject to the Sherman Act. See 15 U.S.C.
§ 1291. Like the NFL, the NCAA had a long-standing
restriction on televising team games. See NCAA, 468
U.S. at 89-90. Beginning in 1951, the NCAA enforced
procedures ensuring that “only one game a week could
be telecast in each area, with a total blackout on 3 of
the 10 Saturdays during the season,” and “[a] team
could appear on television only twice during a season.”
Id. at 90. The NCAA maintained this approach for the
next two decades.
Finally, in the 1980s, the NCAA’s arrangement was
challenged by colleges that wanted to negotiate more
lucrative television deals for their popular football
teams. Id. at 90-91. This challenge resulted in the
Supreme Court’s authoritative opinion on the anti­
trust law of league sports, National Collegiate Athletic
Association v. Board of Regents of University of
Oklahoma, 468 U.S. 85 (1984).
In NCAA, the Supreme Court struck down the
NCAA’s restrictive telecast agreements as violating
the Sherman Act. According to the Court, “[b]y partic­
ipating in an association which prevents member insti­
tutions from competing against each other on the basis
of price or kind of television rights that can be offered
to broadcasters, the NCAA member institutions have
created a horizontal restraint—an agreement among
competitors on the way in which they will compete

12a
with one another.” Id. at 99. Such an arrangement vio­
lated Section 1 of the Sherman Act because “[i]ndividual competitors lose their freedom to compete,” and
“[p]rice is higher and output lower than they would
otherwise be, and both are unresponsive to consumer
preference.” Id. at 106-07.
After NCAA, commentators documented the changes
caused by the increased competition in college football
telecasts. “With conferences and teams now free to
sign their own deals, the number of televised college foot­
ball games grew exponentially.” Nathaniel Grow, Reg­
ulating Professional Sports Leagues, 72 Wash. & Lee
L. Rev. 573, 617 (2015). Moreover, because college
football teams could compete “against one another in
the marketplace, broadcasters collectively pa[y] half
as much for the rights to televise a larger number of
games than the NCAA had previously received for its
collective package.” Id. By contrast, under the SBA,
the NFL’s control over the pooled broadcasting rights
increased revenues from telecasting, see Michael A.
McCann, American Needle v. NFL: An Opportunity to
Reshape Sports Law, 119 Yale L.J. 726, 732 (2010),
while decreasing the number of telecasts available to
consumers, see Ariel Y. Bublick, Note, Are You Ready
for Some Football1?, 64 Fed. Comm. L.J. 223, 231, 234—
36 (2011).
While the NFL’s collective sale of telecast rights to
free, over-the-air television networks was squarely cov­
ered by the SBA, as television technology advanced,
from over-the-air to cable to satellite television, the
NFL and other professional leagues began using new
methods of distributing telecasts of the games.3 In
3 Over-the-air television is conveyed by “[broadcast stations
[that] radiate electromagnetic signals from a central transmit­
ting antenna.” Turner Broad. Sys., Inc. v. F.C.C., 512 U.S. 622,

13a
1987, the NFL entered into its first cable deal, selling
the right to telecast eight Sunday games to ESPN. See
8 F.C.C. Red. 4875, 4879. Beginning in 1994, the NFL
entered into an agreement with DirecTV, allowing
DirecTV to sell Sunday Ticket exclusively through its
satellite television service. Babette Boliek, Antitrust,
Regulation, and the “New” Rules of Sports Telecasts,
65 Hastings L.J. 501, 541 (2014).
Courts considering challenges to the telecasting
arrangements between sports leagues and satellite
television services have concluded that “‘sponsored tele­
casting’ refers to broadcasts which are financed by busi­
ness enterprises (the ‘sponsors’) in return for advertis­
ing time and are therefore provided free to the general
public.” Shaw v. Dallas Cowboys Football Club, Ltd.,
172 F.3d 299, 301 (3d Cir. 1999). Therefore, the SBA
does not exempt league contracts with cable or satellite
television services, for which subscribers are charged a
fee, from antitrust liability. Id. at 303; see also Chicago
Profl Sports Ltd. P’ship v. Nat’l Basketball Ass’n, 961
F.2d 667, 671 (7th Cir. 1992) (Bulls I) (holding that the
SBA applies when a league has transferred rights to
sponsored telecasting and therefore did not apply to
the NBA’s efforts to limit distribution by the Bulls of
627 (1994). It is free to “any television set within the antenna’s
range.” Id. Cable television, in contrast, typically relies upon
“cable or optical fibers strung aboveground or buried in ducts to
reach the homes or businesses of subscribers.” Id. at 628. Satellite
television providers deliver their “signals via satellite directly
into its customers’ homes.” DirecTV, Inc. v. Webb, 545 F.3d 837,
841 (9th Cir. 2008). As with “conventional radio and television
broadcasting, [satellite television] signals are broadcast through
the air and can be received—or intercepted—by anyone with the
proper hardware.” Id. Because satellite signals could be received
by anyone with a satellite dish, satellite providers typically
“encrypt [] [their] signals to protect against signal theft.” Id.

14a
their games on a cable network); Chicago Profl Sports
Ltd. P’ship v. Nat’l Basketball Ass’n, 95 F.3d 593, 595
(7th Cir. 1996) (Bulls IT) (same); Kingray, Inc. v. NBA,
Inc., 188 F. Supp. 2d 1177,1183 (S.D. Cal. 2002) (‘“Spon­
sored telecasting’ under the SBA pertains only to net­
work broadcast television and does not apply to non­
exempt channels of distribution such as cable televi­
sion, pay-per-view, and satellite television networks.”).
The current arrangements for cable broadcasting of
NFL games is as follows. The 32 individual NFL teams,
each of which is a separate “independently owned, and
independently managed business,” Am. Needle, 560
U.S. at 196, entered into an agreement with the NFL
(“Teams-NFL Agreement”) to pool their telecasting
rights and give the NFL the authority to exercise those
rights, rather than exercising those rights individu­
ally. The consequence of this agreement is that an
individual team cannot enter into individual agree­
ments with networks, satellite TV providers, or inter­
net streaming services. Instead, only the NFL can
enter into an agreement to sell those rights.
Acting on behalf of its teams, the NFL entered into
two additional agreements licensing the teams’ tele­
cast rights: (1) “the NFL-Network Agreement,” which
governs “local games,” and (2) “the NFL-DirecTV Agree­
ment,” which governs “out-of-market games.”
Under the NFL-Network Agreement, CBS and Fox
coordinate to create a single telecast for every Sundayafternoon NFL game. Pursuant to that agreement,
NFL owns the copyright in the telecasts. See, e.g., U.S.
Copyright Office, NFL 2016 Season: Cowboys @
Packers, Week #6, Reg. No. PA0002069024 (Jan. 4,
2017) (noting that copyright was held by the NFL pur­
suant to transfer “[b]y contract”). The NFL, in turn,
permits CBS and Fox to broadcast a limited number of

15a
games through free, over-the-air television. These are
the so-called local games.
Under the NFL-DirecTV Agreement, the NFL allows
DirecTV to obtain all of the live telecasts produced by
CBS and Fox, package those telecasts, and deliver the
bundled feeds to NFL Sunday Ticket subscribers.
Thus, Sunday Ticket subscribers have access to both
local and out-of-market games.
As a result of these agreements, fans who do not sub­
scribe to Sunday Ticket have access to, at most, two to
three local games each Sunday afternoon, in any given
geographic area. This means, for example, that Los
Angeles fans would be able to use over-the-air cable to
watch the Rams play the Chargers at 1:00PM E.T. on
Fox, the Vikings play the Patriots at 1:00PM E.T. on
CBS, and the Dolphins play the Cowboys at 4:00PM
E.T. on CBS. But there is no option for NFL fans to
watch any of the other 7 to 10 games played each
Sunday afternoon which are not available on free,
over-the-air television.
Fans who want to watch other out-of-market games
cannot purchase games individually or by team, but
are required to buy the entire package of NFL games.
Additionally, in order to subscribe to the Sunday Ticket,
consumers must also purchase a basic television pack­
age from DirecTV. In 2015, the cost of a basic Sunday
Ticket package was $251.94 annually for residential
subscribers. For commercial subscribers, the price var­
ied depending on the capacity of the establishment,
ranging from $2,314 to $120,000 per year.
II
Four plaintiffs (Ninth Inning, Inc., 1465 Third Ave­
nue Restaurant Corp., Robert Gary Lippincott, Jr.,
and Michael Holinko) filed a consolidated complaint

16a
against the National Football League, NFL Enter­
prises LLC, all 32 individual NFL teams, DirecTV Hold­
ings LLC, and DirecTV, LLC, on behalf of a putative
class of residential and commercial NFL Sunday Ticket
subscribers. (Our reference to “plaintiffs” refers to the
plaintiffs collectively. We will refer to the defendants
collectively, or as the NFL, the NFL teams, and DirecTV,
as appropriate.)
The plaintiffs’ consolidated complaint alleges that
the defendants’ interlocking agreements work together
to suppress competition for the sale of professional
football game telecasts in violation of Section 1 and
Section 2 of the Sherman Antitrust Act. Specifically,
the complaint alleges that absent the anti-competitive
Teams-NFL and NFL-DirecTV Agreements, the tele­
casts broadcast solely on Sunday Ticket would be avail­
able through other distributors. Additionally, each
NFL team could make its own arrangements for tele­
casts of its games, and could contract with competing
distribution channels or media, including other cable,
satellite or internet carriers or competing networks.
As a result of competition, the complaint alleges, a
greater number of telecasts of NFL games would be
created, and those telecasts would be more accessible
to more viewers at lower prices.
The district court dismissed the consolidated com­
plaint for failure to state a claim under either Section
1 or Section 2 of the Sherman Act. “We review a dis­
trict court’s grant of a Rule 12(b)(6) motion to dismiss
for failure to state a claim de novo.” Bain v. Cal.
Teachers Ass’n, 891 F.3d 1206, 1211 (9th Cir. 2018).
Additionally, we “take all allegations of material fact
as true and construe them in the light most favorable
to the nonmoving party.” Turner v. City & Cty. Of
S.F., 788 F.3d 1206, 1210 (9th Cir. 2015). However,

17a
“conclusory allegations of law and unwarranted infer­
ences are insufficient to avoid a Rule 12(b)(6) dismis­
sal.” Cousins v. Lockyer, 568 F.3d 1063, 1067 (9th Cir.
2009) (internal quotation marks omitted). We examine
the district court’s dismissal of the Section 1 and
Section 2 claims in turn.
It is significant here that the defendants do not
argue on appeal that the SBA applies to the TeamsNFL or NFL-DirecTV Agreements. As the foregoing
history indicates, the NFL and the NFL teams’ early
decision to pool their telecast rights into a single pack­
age and share broadcast revenues was invalidated by
Judge Grim as a violation of the Sherman Act. NFL I,
116 F. Supp. at 329-30. The NFL recovered its ability
to enter into such pooling arrangements only by the
enactment of the SBA, which offered the NFL and the
NFL teams an exemption from antitrust law. See 15
U.S.C. § 1291. Because the defendants do not argue
that the SBA applies to satellite broadcasting, we
assume (without deciding) that it is not applicable to
the Teams-NFL or NFL-DirecTV Agreements. Accord­
ingly, our analysis of the complaint’s allegations regard­
ing those agreements is largely governed by the
Supreme Court’s decision in NCAA, 468 U.S. 85, which
analyzed a similar league sport broadcasting arrange­
ment under the Sherman Act, without any applicable
statutory exemption.4

4 The defendants argue, and the plaintiffs do not dispute, that
the NFL-Network Agreement is covered by the SBA. But the par­
ties do not argue that the agreements at issue here are exempt
from antitrust liability merely because the NFL-Network Agree­
ment has such immunity.

18a
III
Section 1 of the Sherman Act prohibits “[e]very con­
tract, combination in the form of trust or otherwise, or
conspiracy, in restraint of trade or commerce among
the several States.” 15 U.S.C. § 1. Although on its face,
Section 1 appears to outlaw virtually all contracts, it
has been interpreted as “outlawing] only unreasonable
restraints” of trade. State Oil Co. v. Khan, 522 U.S. 3,
10 (1997).
We determine whether a particular restraint of
trade is unreasonable and thus a violation of Section 1
under the so-called “rule of reason.”5 Under this rule,
we examine “the facts peculiar to the business, the his­
tory of the restraint, and the reasons why it was
imposed,” to determine the effect on competition in the
relevant product market. Nat’l Soc’y ofProfl Eng’rs v.
United States, 435 U.S. 679, 692 (1978).
“In order to state a Section 1 claim under the rule of
reason, plaintiffs must plead four separate elements.”
Brantley v. NBC Universal, Inc., 675 F.3d 1192, 1197
(9th Cir. 2012). “[P]laintiffs must plead facts which, if
5 Under antitrust law, some restraints of trade, such as hori­
zontal agreements among competitors to fix prices, restrict out­
put, and divide markets, are generally deemed to be per se unrea­
sonable, and therefore it is unnecessary to apply the rule of rea­
son in order to determine whether such agreements violate Section
1. See In re Musical Instruments & Equip. Antitrust Litig., 798
F.3d 1186, 1191 (9th Cir. 2015). Although this case concerns a
horizontal agreement, the Supreme Court has concluded that the
per se rule does not apply to agreements involving teams engaged
in league sports, on the ground that such sports “can only be
carried out jointly.” NCAA, 468 U.S. at 101 (quoting Bork, The
Antitrust Paradox 278 (1978)). Therefore, when considering
agreements among entities involved in league sports, such as
here, a court must determine whether the restriction is unreason­
able under the rule of reason. Id. at 103.

19a
true, will prove: (1) a contract, combination or conspir­
acy among two or more persons or distinct business
entities; (2) by which the persons or entities intended
to harm or restrain trade or commerce among the sev­
eral States, or with foreign nations; (3) which actually
injures competition.” Id. (internal quotation marks
and citations omitted). Additionally, the plaintiffs must
plead antitrust standing, meaning they must allege
that (4) they are the proper parties to bring the anti­
trust action because they were harmed by the defend­
ants’ contract, combination, or conspiracy, and the
harm they suffered was caused by the anti-competitive
aspect of the defendants’ conduct. Id.
A
The defendants do not dispute that the complaint
adequately alleges that defendants have contracts for
the purpose of restraining trade, the first and second
elements. The defendants argue only that the complaint
does not adequately allege the third and fourth ele­
ments of a Section 1 claim. We begin with the third
element of a Section 1 claim, whether plaintiffs have
adequately alleged that the restraint injures
competition.
In order to satisfy this third requirement, the plain­
tiffs must identify a harm that is “attributable to an
anti-competitive aspect of the practice under scru­
tiny.” Atl. Richfield Co. v. USA Petroleum Co., 495 U.S.
328, 334 (1990). A harm that could have occurred
under the normal circumstances of free competition
fails to satisfy this requirement. See Spectrum Sports,
Inc. v. McQuillan, 506 U.S. 447, 458 (1993). An agree­
ment between competitors (a horizontal agreement)
satisfies the requirement of showing injury to competi­
tion if it reduces competitors’ independent decisions
about “whether and how often to offer to provide ser-

20a
vices,” F.T.C. v. Superior Court Trial Lawyers Ass’n,
493 U.S. 411, 422 (1990), or fixes prices, United States
v. Socony-Vacuum Oil Co., 310 U.S. 150, 223 (1940),
or otherwise limits competitors’ “freedom to compete,”
NCAA, 468 U.S. at 106. In order to show that an
agreement injures competition, a plaintiff must gener­
ally show that the defendants have market power
within a relevant market, Newcal Indus., Inc. v. Ikon
Office Sol., 513 F.3d 1038,1044 (9th Cir. 2008), mean­
ing that the defendants have “the ability to raise prices
above those that would be charged in a competitive
market,” NCAA, 468 U.S. at 109 n.38. Alternatively,
plaintiffs can show that a restraint injures competi­
tion if they plausibly allege “a naked restriction on
price or output,” such as “an agreement not to compete
in terms of price or output.” Id. at 109. An agreement
between companies at different levels of a supply
chain (a vertical agreement) may injure competition if
it facilitates “horizontal collusion.” Brantley, 675 F.3d
at 1198.
B
In this case, the plaintiffs’ allegations on their face
adequately allege an injury to competition. The inter­
locking agreements at issue are similar to those that
have historically required an exemption from anti­
trust liability by the SBA: they are “joint agree­
ment [s]” whereby a “league of clubs participating in
professional football.. . sells or otherwise transfers all
or any part of the rights of such league’s member clubs”
in the telecasting of such games. 15 U.S.C. § 1291. This
is the exact type of arrangement that Judge Grim con­
cluded violated the Sherman Act—and, more important­
ly, that the Supreme Court held caused an injury to
competition in the context of college football. See
NCAA, 468 U.S. at 104.

21a
Because we assume that the NFL’s interlocking
agreements are not protected by the SBA, the Supreme
Court’s decision in NCAA controls our analysis. In that
case, the Supreme Court held that an agreement
among college football teams and the NCAA violated
Section 1 of the Sherman Act because the agreement
eliminated competition in the market for college
football telecasts. See generally id. Here, the interlock­
ing agreements impose similar restrictions. First, the
Supreme Court noted in NCAA that the agreement at
issue “limits the total amount of televised intercolle­
giate football and the number of games that any one
team may televise.” Id. at 94. The complaint here
alleges that the interlocking agreements in this case
impose analogous limitations: plaintiffs assert that
the Teams-NFL and NFL-DirecTV Agreements limit
the “amount of televised [professional] football” that
one team may televise because they restrict the num­
ber of telecasts made to a single telecast for each game.
Second, the Supreme Court noted that the agree­
ments in NCAA provided that “[n]o member [college]
is permitted to make any sale of television rights
except in accordance with the basic plan.” Id. In our
case, plaintiffs allege that the NFL teams are similarly
restricted. Under the terms of the Teams-NFL and
NFL-DirecTV Agreements, no individual NFL team is
permitted to sell its telecasting rights independently.
Independent telecasts are forbidden under the terms
of the Agreements because they would cause the teams
to compete with each other and with DirecTV. Just as
the University of Oklahoma was forbidden from increas­
ing the number of telecasts made of its games, so too
are the Seattle Seahawks forbidden from selling their
telecast rights independently from the NFL.

22a
Third, in NCAA the Court concluded that the agree­
ment among the member colleges was a horizontal
agreement among competitors because “the policies of
the NCAA with respect to television rights are ulti­
mately controlled by the vote of member institutions.”
Id. at 99. The same type of agreement is alleged here.
According to the complaint, the NFL members vote to
approve the contract between DirecTV and the NFL.
Therefore, the complaint adequately alleges that the
Teams-NFL Agreement is a “horizontal restraint—an
agreement among competitors” that “places an artifi­
cial limit on the quantity of televised football that is
available [for sale] to broadcasters and consumers.” Id.
Finally, NCAA held that the agreements constituted
a naked restriction on output, and defined the relevant
output to be “the quantity of television rights available
for sale,” meaning “the total amount of televised inter­
collegiate football,” Id. at 94,99, as opposed to whether
each game was broadcast in some market at some
time. In our case, the complaint likewise alleges that
the interlocking agreements restrain the production
and sale of telecasts in a manner that constitutes “a
naked restriction” on the number of telecasts available
for broadcasters and consumers.
Because the complaint alleges that the interlocking
agreements in this case involve the same sorts of
restrictions that NCAA concluded constituted an
injury to competition, we likewise conclude that the
complaint plausibly alleges an injury to competition.
Further, because the alleged restrictions on the pro­
duction and sale of telecasts constitute “a naked
restriction” on the number of telecasts available for
broadcasters and consumers, the plaintiffs were not
required to establish a relevant market. Id. at 109.

23a
The defendants make a number of arguments against
this conclusion. We consider each in turn.
1
First, the defendants argue that under In re Musical
Instruments & Equipment Antitrust Litigation, 798
F.3d 1186 (9th Cir. 2015), it is necessary to analyze the
horizontal NFL Teams agreement separately from the
vertical NFL-DirecTV agreement, and when viewed in
that light, the NFL-DirecTV agreement does not injure
competition because it is an exclusive distribution
agreement of the type that is presumptively legal. We
disagree. First, Musical Instruments does not require
a court to break down an alleged conspiracy into
its constituent parts. Musical Instruments merely
explained the uncontroversial principle that, in gen­
eral, horizontal agreements are analyzed under per se
rules, while vertical agreements are analyzed under
the rule of reason. Id. at 1191—92. But as noted above,
both types of agreements are analyzed under the rule
of reason in cases involving league sports. NCAA, 468
U.S. at 101-03.
Contrary to the defendants’ argument, we are
required to take a holistic look at how the interlocking
agreements actually impact competition. See Nat’l
Soc’y. of Profl Eng’rs, 435 U.S. at 692. Indeed, “the
essential inquiry” is “whether or not the challenged
restraint enhances competition,” which is assessed by
considering the totality of “the nature or character of
the contracts.” NCAA, 468 U.S. at 103-04 (quoting
Nat’l Soc’y ofProfl Eng’rs, 435 U.S. at 690). Thus, the
law requires that the “character and effect of a conspir­
acy are not to be judged by dismembering it and view­
ing its separate parts, but only by looking at it as a
whole.” Continental Ore Co. v. Union Carbide & Carbon
Corp., 370 U.S. 690, 698—99 (1962) (quoting United

24a
States v. Patten, 226 U.S. 525, 544 (1913)). Accord­
ingly, we must give plaintiffs “the full benefit of their
proof without tightly compartmentalizing the various
factual components and wiping the slate clean after
scrutiny of each.” City of Long Beach v. Standard Oil
Co., 872 F.2d 1401, 1404-05 (9th Cir. 1989), opinion
amended on denial of reh’g, 886 F.2d 246 (9th Cir.
1989) (quoting Continental Ore Co., 370 U.S. at 699).
Looking holistically at the alleged conduct, we con­
clude that the complaint adequately pleads that the
vertical NFL-DirecTV Agreement works in tandem
with the Teams-NFL agreement to restrain competi­
tion. The Supreme Court has held that a horizontal
agreement among competitors to pool separate prop­
erty rights and enter into an agreement to license their
rights vertically can constitute a Section 1 violation.
See Am. Needle, 560 U.S. at 201 (holding that an
agreement among the NFL and its member teams to
create an entity that jointly licensed their separately
owned intellectual property constituted concerted action
in violation of the Sherman Act). Accordingly, we
reject the defendants’ argument that we cannot view
the effects of both the horizontal and vertical agree­
ments working together.
2
Defendants further argue that plaintiffs have failed
to allege an injury to competition because the produc­
tion of the telecasts necessarily requires joint action,
and therefore the restrictions are pro-competitive.
According to defendants, each NFL game broadcast is
a copyrighted work jointly authored by the NFL, the
two competing teams, and the broadcast network, and
the agreement of all participants is necessary in order
to create the telecasts at all. Thus, defendants argue,
the Supreme Court’s decision in American Needle is

25a
inapposite because that decision concerned separately
owned intellectual property, id. at 187, whereas here,
the telecasts could only be created through cooperation
between competitors.
We disagree. Defendants have failed to identify, and
we are unaware of, any binding precedent requiring
the teams and the NFL to cooperate in order to pro­
duce the telecasts.
Under copyright law, it is well-established that the
underlying NFL game is not copyrightable subject
matter. See Dryer v. Nat’l Football League, 814 F.3d
938, 942 (8th Cir. 2016) (noting that “courts have
recognized that the initial performance of a game is an
‘athletic event’ outside the subject matter of copy­
right”); Nat’l Basketball Ass’n v. Motorola, Inc., 105
F.3d 841, 846 (2d Cir. 1997) (“NBA”) (“In our view, the
underlying basketball games do not fall within the
subject matter of federal copyright protection because
they do not constitute ‘original works of authorship’
under 17 U.S.C. §“ 102(a).”).
However, the telecasts of sporting events are plainly
copyrightable “motion pictures” under the Copyright
Act of 1976. 17 U.S.C. § 102(a)(6); NBA, 105 F.3d at
847 (“[R]ecorded broadcasts of NBA games—as opposed
to the games themselves—are .. . entitled to copyright
protection.”). Indeed, “[t]he Copyright Act was amended
in 1976 specifically to insure that simultaneouslyrecorded transmissions of live performances and sport­
ing events would meet the Act’s requirement that the
original work of authorship be ‘fixed in any tangible
medium of expression.’” NBA, 105 F.3d at 847 (citing
17 U.S.C. § 102(a); H.R. Rep. No. 94-1476, at 52); see
also Nat’l Football League v. McBee & Bruno’s, Inc.,
792 F.2d 726, 732 (8th Cir. 1986) (“[T]he legislative
history demonstrates a clear intent on the part of

26a
Congress to ‘resolve, through the definition of “fixa­
tion” . . . , the status of live broadcasts/ using—coinci­
dentally but not insignificantly—the example of a live
football game.”).
Under general copyright law, copyright ownership
vests initially in the author of the work, 17 U.S.C.
§ 201(a), who, as a general rule, “is the party who actu­
ally creates the work, that is, the person who trans­
lates an idea into a fixed, tangible expression entitled
to copyright protection.” See Cmty. for Creative NonViolence v. Reid, 490 U.S. 730, 737 (1989). Thus, in the
absence of an agreement otherwise, the person or com­
pany that creates the telecast is the “author” of the
telecast for the purposes of copyright law. See id.; see
also Garcia v. Google, Inc., 786 F.3d 733, 744 (9th Cir.
2015) (en banc). Assuming that this rule applies in the
league sports setting, the team or network that creates
the telecasts would be the sole owner of the copyright
in the telecasts, absent some agreement to the con­
trary. See Reid, 490 U.S. at 737; see also Baltimore
Orioles, Inc. v. Major League Baseball Players Ass’n,
805 F.2d 663, 668-69 (7th Cir. 1986) (“When a football
game is being covered by four television cameras, with
a director guiding the activities of the four cameramen
and choosing which of their electronic images are sent
to the public and in which order, there is little doubt
that what the cameramen and the director are doing
constitutes ‘authorship.’” (internal quotation marks
and citations omitted)).
In the absence of a legal requirement that the NFL
teams, NFL, and broadcasters coordinate in filming
and broadcasting live games, the Los Angeles Rams
(for instance) could contract for their own telecast of
Rams games and then register the telecasts for those
games with the Rams (and perhaps the team against

27a
whom they are playing). Only the agreements that are
the subject of plaintiffs’ antitrust action prevent such
independent actions. Thus, we reject the defendants’
argument that American Needle, 560 U.S. at 190, is
inapposite; here, like in American Needle, the agree­
ments not to compete concern separately owned intel­
lectual property, and impose an unlawful restraint on
independent competition.
Indeed, the history of the NFL, as well as the
practice in other professional sports leagues, supports
our conclusion. As discussed above, prior to the pas­
sage of the SBA, the telecast rights in NFL games “were
controlled by individual teams” and NFL teams rou­
tinely licensed telecasts of their games to television
networks. U.S. Football League, 842 F.2d at 1346.
Indeed, by the late 1950s, thirteen individual teams
had signed contracts with either CBS or NBC and one
team “had organized its own network.” H.R. Rep. No.
93-483 at 4 (1973). Thus, the Supreme Court explained
that college football teams “are clearly able to negoti­
ate agreements with whatever broadcasters they
choose.” NCAA, 468 U.S. at 114 n.53 (quoting the
district court, Bd. of Regents ofUniv. of Oklahoma v.
Nat’l Collegiate Athletic Ass’n, 546 F. Supp. 1276,
1307-08 (W.D. Okla. 1982)). Further, after the decision
in NCAA, the NCAA teams arranged telecasting on
their own. Grow, supra, 72 Wash. & Lee L. Rev. at 617.
Additionally, in comparable sports leagues, namely
the National Hockey League and Major League Base­
ball, “each team owns the initial right to control tele­
casts of its home games.” Laumann v. NHL, 907 F.
Supp. 2d 465, 473, 485 (S.D.N.Y. 2012); see also New
Boston Television, Inc. v. ESPN, No. 81-1010-Z, 1981
WL 1374, at *1 (D. Mass. Aug. 3,1981) (“The copyright
of the teleplays of all Red Sox games is owned by the
Red Sox.”). And in another form of media, radio broad-

28a
casting, plaintiffs allege that the NFL Teams already
negotiate individual radio broadcasting contracts.
Therefore, we reject defendants’ argument that the
complaint fails to allege a Section 1 violation because
the telecasts can be created only through cooperation
among competitors.
3
Defendants next assert that plaintiffs’ complaint
failed to allege injury to competition because the NFLDirecTV agreement did not reduce the output of NFL
game broadcasts. From the supply side, defendants
argue, every regular season NFL game is broadcast
over free television in some geographic area, and there­
fore, the entire potential supply of NFL game broad­
casts is produced and distributed to the public. From
the demand side, defendants argue, NFL broadcasts
receive the most views of any sports league; 202.3
million unique viewers watched an NFL football game
in 2014.
We disagree that the defendants’ definition of out­
put is the only permissible definition for purposes of
determining whether plaintiffs have stated a claim. As
noted above, NCAA indicated that the relevant output
is “the total amount of televised intercollegiate foot­
ball,” available to consumers. 468 U.S. at 94. We there­
fore reject the defendants’ argument that because all
NFL Sunday-afternoon games are broadcast some­
where, there is no limitation on output as a matter of
law.
The complaint alleges that defendants have limited
output by restricting the quantity of telecasts availa­
ble for sale, and that the NFL has set a uniform quan­
tity of telecasts of football games—one per game—with
no regard to the actual consumer demand for the

29a
telecasts. The plaintiffs plausibly allege that “if mem­
ber institutions were free to sell television rights,
many more games would be shown,” 468 U.S. at 105,
because an individual NFL team would “be free to sell
the right to televise its games for whatever price it
could get.” Id. at 106 n.30 (quoting the district court’s
findings, 546 F. Supp. at 1318). “The prices would vary
for the games, with games between prominent [NFL
teams] drawing a larger price than games between
less prominent [NFL teams].” Id. (quoting the district
court’s findings, 546 F. Supp. at 1318). We conclude
that for purposes of determining whether plaintiffs
have stated an injury to competition, the plaintiffs
have plausibly alleged that the output in this case is
the number of telecasts of games, and that the defend­
ants’ interlocking agreements reduce that output.
4
Finally, defendants claim that the complaint fails to
allege injury to competition because it has not alleged
a properly defined market in which defendants have
market power. Defendants argue that the complaint
failed to plausibly allege that they have market power
in either the market for live video presentations of
regular season NFL games or the submarket for outof-market game broadcasts. We reject these argu­
ments. Given that professional football games have no
substitutes (as fans do not consider NFL games to be
comparable to other sports or forms of entertainment),
see L.A. Mem’l Coliseum Comm’n v. Nat’l Football
League, 726 F.2d 1381, 1393 (9th Cir. 1984), the
defendants in this case have effective control over the
entire market for telecasts of professional football
games. The complaint therefore plausibly alleges a
naked restraint on output: that the defendants’ inter­
locking agreements have the effect of limiting output

30a
to one telecast of each game, which is then broadcast
in a limited manner, solely according to the NFL’s
agreements with CBS, Fox, and DirecTV. When there
is such an agreement not to compete in terms of out­
put, “no elaborate industry analysis is required to
demonstrate the anticompetitive character of such an
agreement.” NCAA, 468 U.S. at 109 (quoting Nat’l
Soc’y of Profl Eng’rs, 435 U.S. at 692). Here, as in
NCAA, “an observer with even a rudimentary under­
standing of economics could conclude that the arrange­
ments in question would have an anticompetitive
effect on customers and markets.” Cal. Dental Ass’n v.
F.T.C., 526 U.S. 756, 770 (1999). Because the com­
plaint adequately alleged that the defendants have
imposed “a naked restriction” on output, it has not
failed to allege market power. NCAA, 468 U.S. at 109.
We conclude that the complaint adequately alleges
the element of injury to competition by alleging that
the interlocking Teams-NFL and NFL-DirecTV Agree­
ments injure competition.
C
Defendants next argue that the plaintiffs lack anti­
trust standing to challenge the Teams-NFL Agree­
ment.6 To plead the fourth element, antitrust standing
or antitrust injury, plaintiffs must allege that they
were harmed by the injury to competition. Brantley,
6 There is no dispute that the plaintiffs have standing to
challenge the NFL-DirecTV Agreement because they are direct
purchasers of DirecTV. Nor is there a dispute that the plaintiffs
have standing to seek injunctive relief based on the Teams-NFL
Agreement because “indirect purchasers are not barred from
bringing an antitrust claim for injunctive relief against manu­
facturers.” Lucas Auto. Eng’g, Inc. v. Bridgestone / Firestone, Inc.,
140 F.3d 1228, 1235 (9th Cir. 1998). The dissent agrees on these
points, as well. Dissent at 41 n.2.

31a
675 F.3d at 1197. Further, plaintiffs must allege that
their harm was caused directly by the antitrust viola­
tor. See Illinois Brick Co. v. Illinois, 431 U.S. 720, 746
(1977). In Illinois Brick, the Supreme Court incorpo­
rated “principles of proximate cause” into an action for
violation of the Sherman Act, holding “that indirect
purchasers who are two or more steps removed from
the violator in a distribution chain may not sue.” Apple
Inc. v. Pepper, 139 S. Ct. 1514, 1520-21 (2019). The
Supreme Court reasoned that allowing every pur­
chaser in a distribution chain to claim damages flow­
ing from a single antitrust violation “would create a
serious risk of multiple liability for defendants.” Illinois
Brick, 431 U.S. at 730. The Court also wanted to avoid
“the evidentiary complexities and uncertainties” that
would be “multiplied in the offensive use of pass-on by
a plaintiff several steps removed from the defendant
in the chain of distribution.” Id. at 732. Accordingly,
Illinois Brick “established a bright-line rule that
authorizes suits by direct purchasers but bars suits by
indirect purchasers.” Pepper, 139 S. Ct. at 1521. Said
otherwise, “purchasers who are two or more steps
removed from the antitrust violator in a distribution
chain may not sue.” Id. To illustrate, under this rule,
if “manufacturer A sells to retailer B, and retailer B
sells to consumer C, then C may not sue A.” Id. How­
ever, “C may sue B if B is an antitrust violator.” Id.
These “principles of proximate cause,” id. at 1520,
apply differently when the injury to plaintiffs is caused
by a multi-level conspiracy to violate antitrust laws.
We first considered this issue in Arizona v. Shamrock
Foods Co., 729 F.2d 1208 (9th Cir. 1984). In that case,
a class of consumers brought an antitrust action against
dairy producers and grocery stores, alleging they had
jointly conspired to fix the price of dairy products at
the retail level. Id. at 1211. Because the consumers

32a
alleged a price-fixing conspiracy implicating both the
dairy producers and the grocery retailers, we concluded
the plaintiffs’ claim was not barred. Id. at 1210. Under
the principles of Illinois Brick, we reasoned that the
plaintiffs’ injuries were caused by the conspiracy itself
(the concerted action of the dairy producers and gro­
cery retailers), and thus the case did not require calcu­
lating the pass-through effects of an indirect injury or
raise the risk of duplicative damage claims. Id. at
1213—14; see also In re ATM Fee Antitrust Litig., 686
F.3d 741, 750 (9th Cir. 2012). As we subsequently
explained, “[i]f the direct purchaser conspires to fix the
price paid by the plaintiffs, then the plaintiffs pay the
fixed price directly and are not indirect purchasers
(i.e., there is no pass-on theory involved).” In re ATM
Fee Antitrust Litig., 686 F.3d at 750. In other words,
when co-conspirators have jointly committed the anti­
trust violation, a plaintiff who is the immediate pur­
chaser from any of the conspirators is directly injured
by the violation. See Pepper, 139 S. Ct. at 1522.
Here, the plaintiffs allege that DirecTV has con­
spired with the NFL and the NFL teams. According to
the complaint, the conspiracy involves both the TeamsNFL agreement and the NFL-DirecTV agreement,
which work together as a single conspiracy to limit the
output of NFL telecasts. This output limitation in turn
results in prices for out-of-market games being higher
than they would be in the absence of the conspiracy.
Because, as in Shamrock Foods, the complaint alleges
that plaintiffs’ injuries were proximately caused by a
single conspiracy, their complaint does not require
calculating the pass-through effects of an indirect
injury or raise a risk of claims for duplicative harms.

33a
See 729 F.2d at 1213-14.7 Even though DirecTV is the
immediate seller to the plaintiffs, the plaintiffs’ allega­
tion that they were directly injured by the conspiracy
among the NFL teams, the NFL, and DirecTV is suffi­
cient to allege antitrust standing for purposes of surviv­
ing a motion to dismiss. See Pepper, 139 S. Ct. at 1521.
The defendants argue (and the dissent agrees) that
the plaintiffs do not have standing to challenge the
Teams-NFL Agreement because In re ATM Antitrust
Fee Litigation limited the co-conspirator exception to
Illinois Brick to cases where an indirect purchaser
“establishes a price-fixing conspiracy between the man­
ufacturer and the middleman.” Id. at 749. Because the
conspiracy in this case involved an output restriction,
defendants argue, Illinois Brick applies and precludes
the plaintiffs from challenging an agreement that did
not affect them directly. This argument misunder­
stands ATM Antitrust Fee Litigation. As we explained,
7 The dissent argues that our holding would require the com­
plex damages calculations that the rule in Illinois Brick was
intended to avoid. Dissent at 41. In Illinois Brick, the Court
expressed concern that the judicial system would be too burdened
if it had to determine how much of the antitrust violator’s over­
charge to the first purchaser was passed on to the second, third,
or fourth purchasers in the distribution chain. 431 U.S. at 733
n.13 (“[T]he final purchaser still will have to trace the overcharge
through each step in the distribution chain.”). But those sorts of
calculations are not required in this context. Unlike the situation
in Illinois Brick, the plaintiffs here do not allege that an innocent
middleman has passed through damages caused by a higher-level
antitrust violator. Because plaintiffs allege that DirecTV is part
of the conspiracy, DirecTV directly caused the injury to the con­
sumers. Thus, to calculate the plaintiffs’ damages, a court would
not need to determine to what extent the NFL overcharged DirecTV;
it would need to consider only the prices consumers paid com­
pared to the prices that would have existed in a competitive market.
See Los Angeles Mem’l Coliseum Comm’n, 791 F.2d at 1367.

34a
the “co-conspirator exception is not really an exception
at all,” but rather describes a situation in which Illinois
Brick is simply not applicable. Id. at 750. Because the
conspiracy alleged in ATM Antitrust Fee Litigation
was a price-fixing conspiracy, we analyzed that sort of
conspiracy, and held Illinois Brick did not apply
because “[i]f the direct purchaser conspires to fix the
price paid by the plaintiffs, then the plaintiffs pay the
fixed price directly and are not indirect purchasers.”
Id.8
Although ATM Antitrust Fee Litigation focused on
an alleged price fixing conspiracy, its reasoning is
equally applicable to an output-restriction conspiracy,
such as the situation here: if the direct purchaser con­
spires to limit the output that will ultimately be avail­
able to the plaintiffs, then the plaintiffs are directly
impacted by the output limitation and have standing
to sue. See Pepper, 139 S. Ct. at 1521. In other words,
under our caselaw, when plaintiffs adequately allege
that their injury was caused by a conspiracy to violate
antitrust laws, even when the conspiracy involves
multiple levels of producers, distributors, and sales,
the plaintiffs sufficiently allege an antitrust injury
that can withstand a motion to dismiss.
Defendants argue that we should distinguish
between price-fixing and output-restricting conspira-

8 Our analysis of ATM Antitrust Fee Litigation accords with
the Supreme Court’s instruction that in a distribution chain
where “manufacturer A sells to retailer B, and retailer B sells to
consumer C,... C may sue B if B is an antitrust violator.” Pepper,
139 S. Ct. at 1521. Because this rule applies so long as B is an
antitrust violator, it is irrelevant whether B is engaged in a price­
fixing or an output-restricting conspiracy. See id.

35a
cies, but provide no reasoned basis for doing so.9 Nor
can they, because the Supreme Court has concluded
that price-fixing conspiracies are functionally indistin­
guishable from output-restricting conspiracies. See
Cal. Dental Ass’n, 526 U.S. at 777. As the Supreme
Court explained, “[a]n agreement on output also equates
to a price-fixing agreement,” because “[i]f firms raise
price, the market’s demand for their product will fall,
so the amount supplied will fall too—in other words,
output will be restricted.” Id. (internal quotations
omitted). On the other hand, “[i]f instead the firms
restrict output directly, price will as mentioned rise in
order to limit demand to the reduced supply.” Id.
(internal quotations omitted). Accordingly, the Supreme
Court noted, “with exceptions not relevant here,
raising price, reducing output, and dividing markets
have the same anticompetitive effects.” Id. (internal
quotations omitted). A conspiracy between a cartel of
widget producers and their widget retailer to set an
artificially high price for widgets is functionally the
same as a conspiracy to set an artificially low total
output of widgets, which causes prices to rise. See id.
Therefore, the consumer of widgets would be directly
injured by the antitrust violators at both levels of the
distribution chain and would have standing to sue
those co-conspirators in both scenarios. See Pepper,
139 S. Ct. at 1521.
Accordingly, we conclude that Illinois Brick is not
applicable here because the complaint adequately
alleges that DirecTV conspired with the NFL and the
NFL Teams to limit the production of telecasts to one
per game, and that plaintiffs suffered antitrust injury
due to this conspiracy to limit output.
9 The dissent echoes this argument, see Dissent at 41 n. 3, but
likewise fails to explain a reasoned basis for such a distinction.

36a
IV
We now turn to the question whether the complaint
adequately alleges a violation of Section 2 of the
Sherman Act. Section 2 makes it unlawful for any per­
son to “monopolize, or attempt to monopolize, or com­
bine or conspire with any other person or persons, to
monopolize any part of the trade or commerce among
the several States, or with foreign nations . . .
15
U.S.C. § 2. Plaintiffs allege two forms of Section 2
violations, a conspiracy to monopolize claim and a
monopolization claim. To establish a conspiracy to
monopolize claim under Section 2, plaintiffs must
plead: “(1) the existence of a combination or conspiracy
to monopolize; (2) an overt act in furtherance of the
conspiracy; (3) the specific intent to monopolize; and
(4) causal antitrust injury.” Paladin Assocs., Inc. v.
Mont. Power Co., 328 F.3d 1145, 1158 (9th Cir. 2003).
To plausibly plead a monopolization claim, plaintiffs
must allege: “(a) the possession of monopoly power in
the relevant market; (b) the willful acquisition or
maintenance of that power; and (c) causal antitrust
injury. ” Somers v. Apple, Inc., 729 F.3d 953, 963 (9th
Cir. 2013) (quoting Allied Orthopedic Appliances Inc.
v. Tyco Health Care Grp. LP, 592 F.3d 991, 998 (9th
Cir. 2010)).10
Plaintiffs allege that by entering into interlocking
agreements, the defendants conspired to monopolize
the market for professional football telecasts and have
monopolized it. Defendants argue that the complaint
fails to state a claim for the same reason that the
Section 1 claim fails: plaintiffs have failed to allege
10 By its terms, the SBA applies only to Section 1 of the
Sherman Act and has no relevance to the plaintiffs’ Section 2
claims. 15 U.S.C. § 1291.

37a
injury to competition or a properly defined relevant
market. Defendants also claim that plaintiffs have failed
to allege that the defendants had the specific intent to
monopolize a relevant market.
We reject this argument. For the reasons explained
above, plaintiffs have adequately alleged injury to
competition, and have adequately alleged that defend­
ants have market power in the market for professional
football telecasts. Moreover, the complaint adequately
alleges that the interlocking NFL-Team and NFLDirecTV agreements were designed to maintain mar­
ket power, which is sufficient to allege defendants’ spe­
cific intent. Accordingly, we conclude that the com­
plaint adequately alleges a Section 2 violation.
REVERSED.

38a
SMITH, N.R., Circuit Judge, dissenting from Part
III(C) of the Majority’s opinion*
The Majority concludes that the direct purchaser
rule articulated in Illinois Brick Co. v. Illinois, 431
U.S. 720 (1977) does not apply to Plaintiffs’ damages
claim related to the Teams-NFL Agreement, because
Plaintiffs have alleged a conspiracy among Defend­
ants to limit output. Maj. Op. at 33—37. Because this
conclusion is controverted by Supreme Court and Ninth
Circuit caselaw, I cannot agree.
In Illinois Brick, the Supreme Court articulated the
direct purchaser rule, which instructs that “indirect
purchasers may not use a pass-on theory to recover
damages [on an anti-trust claim] and thus have no
standing to sue.” Brennan v. Concord EFS, Inc. (In re
ATM Fee Antitrust Litig.), 686 F.3d 741, 748 (9th Cir.
2012) (citing Illinois Brick, 431 U.S. at 745—46). The
Court created this rule to alleviate the concern that
pass-on theories of recovery would require courts to
“trac[e] a wholesale overcharge through an intermedi­
ary and allocate] the retail price between an unlawful
wholesale overcharge and market forces.” Arizona v.
Shamrock Foods Co., 729 F.2d 1208, 1214 (9th Cir.
1984); Illinois Brick, 431 U.S. at 737 (“[T]he use of
pass-on theories . . . essentially would transform
[damages] actions into massive efforts to apportion the
recovery among all potential plaintiffs that could have
absorbed part of the overcharge from direct purchasers
to middlemen to ultimate consumers. However appeal­
ing this attempt to allocate the overcharge might seem
in theory, it would add whole new dimensions of com­
plexity to [damages] suits and seriously undermine
their effectiveness.”).
I concur in the rest of the Majority’s opinion.

39a
The rule has an exception: where a plaintiff alleges
a price-fixing conspiracy between a manufacturer and
the direct purchaser. We refer to this exception as the
“co-conspirator exception.” In re ATM Fee Antitrust
Litig., 686 F.3d at 750. With a price-fixing conspiracy,
“[t]he injury suffered by the [consumer] through the
effectuation of a voluntary co-conspiracy [to fix the
consumer price] can be determined by computing the
retail price of [the product] but-for the alleged price
fix, and subtracting that total from the actual pur­
chase price.” Shamrock Foods Co., 729 F.2d at 1214
(quoting In re Mid-Atlantic Toyota Antitrust Litig.,
516 F. Supp. 1287,1295 (D. Md. 1981)). In other words,
where there is a price-fixing conspiracy, the court need
not engage in a complex damages calculation, because
the overcharge “was not passed on to the consumers
through any other level in the distribution chain.” Id.
In our case, Plaintiffs’ challenge to the horizontal
agreement among the NFL Teams is unquestionably
based on a pass-on theory of injury, and the co­
conspirator exception does not apply. After all, Plain­
tiffs have not alleged that the NFL Teams set, or
conspired to set, the actual price paid by any consum­
ers. Instead, they allege only that DirecTV has set an
artificially high consumer price—an allegation that
would require the court to determine whether the
payment DirecTV made to the NFL for the telecast
rights was an overpayment,1 how much of an overpay­
ment it was (relative to what DirecTV would have had
to pay had the NFL Teams not agreed to pool all of
1 If DirecTV did not overpay the NFL, then consumers have
not been damaged by the NFL’s horizontal agreement. Under
those circumstances, any arbitrary inflation in the price set by
DirecTV could not have stemmed from that agreement, but must
stem from some other source.

40a
their broadcast rights), and how much of that overpay­
ment was actually then passed on to the consumers.
Thus, Plaintiffs’ claim for damages stemming from the
alleged horizontal agreement among the NFL Teams
would require the very analysis prohibited by the
Illinois Brick rule. That claim fails.2
The Majority disagrees, claiming that, because Plain­
tiffs have alleged a conspiracy between the manufac­
turer and the distributor to restrict output, the Illinois
Brick rule is inapplicable. Maj. Op. at 38. The Major­
ity’s theory creates problems for three reasons.
First, this court has already rejected the Majority’s
notion that the Illinois Brick rule does not apply when
an alleged conspiracy has the same anti-competitive
effect as fixing the consumer price.3 See In re ATM Fee
2 On the other hand, Plaintiffs are correct in asserting that,
notwithstanding the direct purchaser rule, they “have standing
to challenge the agreements between the teams and the league”
for injunctive relief. Freeman v. San Diego Ass’n of Realtors, 322
F.3d 1133, 1145 (9th Cir. 2003) (“Illinois Brick doesn't apply to
equitable relief.”). Thus, because Plaintiffs seek injunctive relief
in addition to their damages requests, their claim challenging the
NFL Teams’ horizontal Agreement is not entirely precluded by
the direct purchaser rule.
3 The Majority claims that a distinction between price-fixing
and output-fixing restrictions is foreclosed by California Dental
Association. Maj. Op. at 36 (citing Cal. Dental Ass’n v. FTC, 526
U.S. 756, 777 (1999)). However, California Dental Association
does not discuss the Illinois Brick rule or the distinction between
indirect and direct purchasers. See generally 526 U.S. 756.
Instead, that case stands only for the uncontested proposition
that a conspiracy to price fix and a conspiracy to restrict output
both injure consumers by arbitrarily raising the price they pay
for a product—i.e., both types of conspiracy have the same anti­
competitive effects. Id. at 777. That says nothing about whether
a particular consumer’s injury is direct or indirect, or which con­
sumers are authorized to seek judicial redress (i.e., which con-

41a
Antitrust Litig., 686 F.3d at 753 (rejecting an argu­
ment that Illinois Brick did not apply because “con­
spiring to set a [pre-market] price for the purpose and
effect of raising the [market] price . . . equates to fixing
[the market] price and makes the payers of the raised
[market] price direct purchasers.” (emphasis added)).
It simply does not matter that the alleged pre-market
conspiracy has the same effect as setting a specific mar­
ket price. Id. at 752. Similarly, it does not matter that
the ultimate consumers “are purchasing from a viola­
tor” of the Sherman Act. Id. at 755. As long as a party
challenging anti-competitive behavior relies on a passon theory of injury, it may recover damages only if it
alleges and demonstrates a conspiracy that actually
sets the consumer price—not just a conspiracy that
may have the same practical effect. Id. at 754 (“[U]nder
the co-conspirator exception recognized in this circuit,
the price paid by a plaintiff must be set by the conspir-

sumers do not rely on a pass-on theory of injury). Indeed, in
Illinois Brick itself, the Court acknowledged that the indirect
purchasers were injured by the manufacturer overcharging the
distributor, but held that those purchasers were not the proper
parties to sue to recover damages. 431 U.S. at 744-46.
The Majority’s reliance on Apple Inc. v. Pepper, is likewise mis­
placed, as the plaintiffs in that case purchased the relevant good
directly from the monopolizing entity—not from a middleman
who conspired with the monopolizing entity down the line. 139 S.
Ct. 1514, 1521 (2019). Here, Plaintiffs purchased a service from
DirecTV, which is not a party to the NFL’s horizontal agreement.
While the Majority is correct that “we are required to take a
holistic look at how the interlocking agreements actually impact
competition,” Maj. Op. at 24, determining whether a party has
alleged anti-competitive effects is distinct from determining
whether the party is a direct or indirect purchaser with respect
to a specific agreement—and none of the cases cited by the major­
ity say otherwise, or even address that issue.

42a
acy and not merely affected by the setting of another
price.”).
Second, the conspiracy alleged by Plaintiffs—that
Defendants conspired to reduce the output of televi­
sion broadcast rights—does not alleviate the concerns
expressed in Illinois Brick. Unlike a price-fixing con­
spiracy, the injury to the consumer from an outputreduction conspiracy still depends on a pass-on theory
of damages. The initial overcharge occurs between the
manufacturer and the distributer—i.e., a distributor
pays a manufacturer an anticompetitive price for dis­
tribution rights—and that overcharge is passed on by
the distributor to the consumer. In such cases, courts
must determine how much of the consumer price stems
from ordinary market forces, and how much of it stems
from the distributor’s efforts to recoup its overpay­
ment to the manufacturer.4 See Illinois Brick, 431 U.S.
at 744-46. Thus, unlike with a price-fixing conspiracy,
the reviewing court must still make the exact determi­
nation “sought to be avoided in Illinois Brick.” Shamrock
Foods Co., 729 F.2d at 1214.
Finally, in In re ATM Fee Antitrust Litigation, we
ruled that the co-conspirator exception “only applies
when the co-conspirators fix the price paid by the
plaintiff.” 686 F.3d at 752 (emphasis added). Thus,
4 Relying exclusively on the fact that Plaintiffs “allege that
DirecTV is part of the conspiracy,” the Majority conclusively
states that “a court would not need to determine to what extent
the NFL overcharged DirecTV,” because “it would need to con­
sider only the prices consumers paid compared to the prices that
would have existed in a competitive market.” Maj. Op. at 34 n. 7.
However, it is unclear how in practice a court could consider what
the theoretical consumer price would have been in a competitive
market (absent the NFL’s horizontal agreement) without consid­
ering whether and how much of an overpayment DirecTV made.

43a
because Plaintiffs have not alleged that Defendants
conspired to fix the price paid by the consumer, the co­
conspirator exception—at least in its present form—
does not apply. See Dickson v. Microsoft Corp., 309
F.3d 193, 215 (4th Cir. 2002) (“[W]e interpret these
cases as standing for the more narrow proposition that
Illinois Brick is inapplicable to a particular type of
conspiracy—price-fixing conspiracies.” (emphasis
added)); In re ATM Fee Antitrust Litig., 686 F.3d at
752 (approving of the Fourth Circuit’s analysis in
Dickson). In other words, to conclude that Plaintiffs
have anti-trust standing, we must create a new excep­
tion to the Illinois Brick rule. The Supreme Court has
instructed us not to do so. Kansas v. UtiliCorp United,
Inc., 497 U.S. 199, 216 (1990) (“[A]mple justifications
exist for the Court’s stated decision not to carve out
exceptions to the indirect purchaser rule for particular
types of markets.” (quoting Illinois Brick, 431 U.S. at
744)); Illinois Brick, 431 U.S. at 745 (“As we have
noted . . . Hanover Shoe itself implicitly discouraged
the creation of exceptions to its rule barring pass-on
[theories], and we adhere to the narrow scope of
exemption indicated by our decision there.”).

44a
APPENDIX B
[REDACTED]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES — GENERAL
Case No. ML 15-02668-BRQ (JEMx)
Date

June 30. 2017

Title

IN RE: NATIONAL FOOTBALL LEAGUES
SUNDAY TICKET ANTITRUST LITIGA­
TION
THIS DOCUMENT RELATES TO: ALL
ACTIONS

Present:

The
Honorable
BEVERLY
REID
O’CONNELL. United States District Judge

Cheryl Wvnn
Relief Deputy Clerk
Not Present
Court Reporter
N/A
Tape No.
Attorneys Present for Plaintiffs:
Not Present
Attorneys Present for Defendants:
Not Present
Proceedings: (IN CHAMBERS)

45a
ORDER RE THE NFL DEFENDANTS’
MOTION TO DISMISS [170]
I. INTRODUCTION
Pending before the Court is the National Football
League (“NFL”) Defendants’1 Motion to Dismiss Plain­
tiffs’ Consolidated Amended Complaint (“CAC”). (See
Dkt. No. 170 (hereinafter, “Mot.”).) After considering
the papers filed in support of and in opposition to the
instant Motion, as well as oral argument of counsel,
for the reasons set forth below, Defendants’ Motion is
GRANTED.
II. BACKGROUND
A. Factual Background
1. The Action and the Parties
This action was initially brought as twenty-seven
related class actions against various NFL Defendants,
various DirecTV entities, CBS Corporation (“CBS”),
1 The NFL Defendants in this action consist of: Arizona
Cardinals, Inc.; Atlanta Falcons Football Club LLC; Baltimore
Ravens Limited Partnership; Buccaneers Limited Partnership;
Buffalo Bills, Inc.; Chicago Bears Football Club Inc.; Cincinnati
Bengals, Inc.; Cleveland Browns LLC; Dallas Cowboys Football
Club, Ltd.; Denver Broncos Football Club; Detroit Lions, Inc.;
Football Northwest LLC; Green Bay Packers, Inc.; Houston NFL
Holdings LP; Indianapolis Colts Inc.; Jacksonville Jaguars Ltd.;
Kansas City Chiefs Football Club, Inc.; Miami Dolphins, Ltd.;
Minnesota Vikings Football Club LLC; NFL Enterprises LLC;
National Football League, Inc.; New England Patriots, LP; New
Orleans Louisiana Saints LLC; New York Football Giants, Inc.;
New York Jets Football Club, Inc.; Oakland Raiders LP; PDB
Sports Ltd.; Panthers Football LLC; Philadelphia Eagles Football
Club, Inc.; Pittsburgh Steelers Sports, Inc.; San Diego Chargers
Football Co.; San Francisco Forty Niners Ltd.; Tennessee
Football, Inc.; The Rams Football Company LLC; and, Washington
Football Inc. (See Dkt. No. 163 H 29.)

46a
Fox Broadcasting Company (“Fox”), NBCUniversal
Media, LLC (“NBC”), and ESPN, Inc. (“ESPN”). (See
Dkt. No. 142 (hereinafter, “Order”) at 1 & n.l.) On May
23, 2016, this Court consolidated these actions and
ordered the plaintiffs to file a CAC. (Order at 5-6.) On
June 24, 2016, Plaintiffs Ninth Inning Inc., doing
business as The Mucky Duck (“The Mucky Duck”),
1465 Third Avenue Restaurant Corp., doing business
as Gael Pub (“Gael Pub”), Robert Gary Lippincott, Jr.
(“Mr. Lippincott”), and Michael Holinko (“Mr. Holinko”)2
filed the operative CAC. (See Dkt. No. 163 (hereinafter,
“CAC”).)
Plaintiffs allege that the exclusive agreement between
the NFL and DirecTV, through which DirecTV has
created its “Sunday Ticket” programming product and
is given the exclusive rights to broadcast all NFL games
that are not shown on a broadcast television station
within any given geographical area, is anticompetitive
and violates the Sherman Act. (See id.) Plaintiff
The Mucky Duck is a pub located in San Francisco,
California, that has purchased Sunday Ticket from
DirecTV to attract customers on Sunday afternoons
during the NFL season. (CAC 1 24.) Plaintiff Gael Pub
is a pub located in New York, New York that has
also purchased Sunday Ticket to attract patrons. (CAC
H 25.) Mr. Lippincott and Mr. Holinko are Healdsburg,
California, and Belle Mead, New Jersey residents
respectively, who have purchased Sunday Ticket to
watch out-of-market Sunday afternoon NFL games.
(CAC ff 26, 27.)

2 The Court will refer to The Mucky Duck, Gael Pub, Mr.
Lippincott, and Mr. Holinko collectively as “Plaintiffs.”

47a
Plaintiffs bring this action against the NFL Defend­
ants, DirecTV Holdings LLC, and DirecTV, LLC.3 (See
CAC
29, 34, 35.) Until 2015, the NFL was an
unincorporated association of thirty-two professional
American football teams, with each team being sepa­
rately owned and operated and headquartered in different
cities across the country. (CAC % 28.) In or about 2015,
the NFL incorporated as the National Football League,
Inc., with its headquarters in New York, New York.
(CAC *1 30.) NFL Enterprises, LLC was also organized
to hold the broadcast rights of the thirty-two NFL
teams and to license them to various Multichannel Video
Programming Distributors (“MVPDs”). (Id.) Through
the NFL, the thirty-two teams set game rules and a
game schedule and divide their teams into geographic
territories. (CAC % 31.) According to Plaintiffs, the teams
have allowed the NFL to negotiate television contracts
with national broadcasters on their behalf, including
the broadcast of each team’s games outside of its home
territory.4 (Id.) Defendant DirecTV Holdings LLC is a
Delaware limited liability company with its principal
place of business in El Segundo, California. (CAC 34.)
DirecTV Holdings LLC is a digital television provider
with, according to Plaintiffs, approximately 20.4 million
subscribers as of December 31, 2014. (Id.) DirecTV,
LLC is a California limited liability company with its
principal place of business also in El Segundo, California,
that issues bills to its subscribers. (CAC 1 35.)
3 The Court will refer to DirecTV Holdings, LLC and DirecTV,
LLC collectively as the “DirecTV Defendants” and will refer to
the NFL Defendants and DirecTV Defendants collectively as
“Defendants.”
4 Only approximately six games are shown on broadcast televi­
sion each week, and the games shown depends on the location of
the broadcast. (See CAC i[ 8.)

48a
The NFL is the most significant provider of profes­
sional football within the United States and receives
approximately $6 billion annually in television revenue.
(CAC M 37-38.) In 2011, the NFL negotiated nine-year
extensions to preexisting contracts with Fox, CBS, and
NBC. (CAC St 38.) Plaintiffs claim that, according to an
August 2014 Bloomberg report, ESPN, Fox, CBS, and
NBC pay $1.9 billion, $1.1 billion, $1 billion, and $950
million per year respectively for the right to broadcast
NFL games. (Id.) Further, in October 2014, the NFL
and DirecTV entered into a telecasting deal worth
approximately $1.5 billion per year. (CAC ^1 39.)
2. Class Action Allegations
Plaintiffs bring this class action under Federal Rule
of Civil Procedure 23(b)(2) and (b)(3) on behalf of
themselves and two classes, described as the following:
All DirecTV commercial subscribers that
purchased the NFL Sunday Ticket from
DirecTV, or its subsidiaries, at any time
between June 17, 2011 and the present
(“Commercial Class”). The Commercial Class
excludes the Defendants and any of their
current or former parents, subsidiaries or
affiliates. The Commercial Class also excludes
all judicial officers presiding over this action
and their immediate family members and
staff, and any juror assigned to this action.
All DirecTV residential subscribers that
purchased the NFL Sunday Ticket from
DirecTV, or its subsidiaries, at any time
between June 17, 2011 and the present
(“Residential Class”). The Residential Class
excludes the Defendants and any of their
current or former parents, subsidiaries or

49a
affiliates. The Residential Class excludes all
judicial officers presiding over this action and
their immediate family members and staff, and
any juror assigned to this action.
(CAC SI 40.) The Mucky Duck and Gael Pub represent
the Commercial Class, while Mr. Lippincott and Mr.
Holinko represent the Residential Class. (CAC SIS! 4142.)
Plaintiffs claim that the relevant geographic market
for both classes is the United States. (CAC % 53.)
In addition, Plaintiffs allege that the relevant product
market is the live video presentations of regular season
NFL games, with a submarket for “out-of-market”
games. (Id.) NFL games broadcast locally on CBS and
Fox on Sunday afternoons are distinct from the multi­
game and out-of-market Sunday Ticket offerings. (Id.)
Further, Plaintiffs claim that new entrants that would
dilute the market power over NFL video broadcasts
are extremely unlikely, because it “would require the
creation of a new professional league playing American
football.” (CAC % 54.) As Plaintiffs explain, past attempts
to establish other professional football leagues have
generally failed. (See CAC W 54-57.) Thus, according
to Plaintiffs, the NFL’s monopoly power will be
tempered only if Sunday Ticket and the corresponding
agreement is broken up through antitrust authority.
(CAC f 58.)
3. Factual Background
Today, the thirty-two NFL teams have granted the
NFL the right to negotiate pooled television rights on
their behalf. (CAC H 81.) According to Plaintiffs, this
has led to broadcasting NFL games in two principal
ways. (CAC 'll 82.) First, the NFL and its teams sell
their rights to broadcast (or “over-the-air”) and cable

50a
networks. (CAC 83.) Currently, the NFL contracts
with five networks: NBC, Fox, CBS, ESPN, and its
own NFL Network. (Id.) For games that occur on
Sunday, CBS holds the exclusive rights to broadcast
American Football Conference (“AFC”) games, while
Fox has the exclusive rights to broadcast National
Football Conference (“NFC”) games. (CAC f 84.) In
addition, there is typically one game on Sunday, Monday,
and Thursday nights that is licensed exclusively to
NBC, ESPN, and the NFL Network, respectively. (Id.)
Though multiple games take place on Sunday, the
NFL works with CBS and Fox and determines which
games will be broadcast in which locations, with usually
only one game available at a time in any given location
or market. (Id.) Games take place in either a 1:00 p.m.
Eastern Standard Time (“EST”) or a 4:25 p.m. EST
time slot, and every week either Fox or CBS has the
right to air a game in one time slot, while the other
network has the right to air a game in both time slots.
(Id.) The right to air two games, rather than one game,
alternates every week. (Id.) Thus, Plaintiffs allege,
that on any given Sunday afternoon during football
season, there are no more than two regular season
football games airing in one location, though there
may be as many as seven games occurring simultane­
ously. (CAC 'll 85.) Altogether, only six games are
broadcast on television in any given week in any
one market, which, Plaintiffs claim, has the effect of
making the rights more valuable to broadcasters by
charging more for advertising and affiliation fees.
(CAC f 86.)
Beginning in 1994, pursuant to an exclusive
agreement with the NFL, DirecTV offered its subscrib­
ers “Sunday Ticket,” which provided access to Sunday
afternoon games that were not otherwise available in
their geographic market. (CAC f 89.) Today, DirecTV

51a
takes the live game telecast feeds produced by CBS
and Fox redistributes them to Sunday Ticket subscrib­
ers via DirecTV channels. (CAC f 90.) Thus, if
someone wishes to view these out-of-market games,
they must subscribe to Sunday Ticket (or, in some
circumstances, purchase an online Sunday Ticket
live streaming package from DirecTV).5 (CAC % 91.)
The contracts between the NFL and DirecTV are
negotiated on behalf of the league and ratified by a
vote of the members of the league. (CAC 1 92.)
Plaintiffs claim that the NFL and DirecTV’s exclu­
sive arrangement results in Sunday Ticket subscribers
paying a higher price for Sunday Ticket than they
would otherwise pay if the agreements were negoti­
ated competitively. (CAC f 94.) Further, Plaintiffs
claim that the NFL and its teams’ agreement to pool
broadcasts constitutes a horizontal supply restriction.
(CAC f 99.) According to Plaintiffs, the harm this
horizontal supply restriction has caused is evident in
several ways, including that (1) the availability of
football broadcasts on standard over-the-air and cable
channels is vastly lower than it would otherwise be,
and, (2) the output of NFL broadcasts is only one broad­
cast per game, compared to other major American
sports leagues, where teams may produce two broad­
casts of each game. (CAC M 100-01.) Further, Plaintiffs
aver that these restrictions result in inflated prices for
Sunday Ticket. (CAC f 102.) For the 2015 season, for
instance, DirecTV charged individual subscribers
approximately $359 for a full season of Sunday Ticket
and commercial subscribers paid between $1,458 to
6 Sunday Ticket has additional components, including “NFL
Sunday Ticket Max,” which includes the “Red Zone Channel,
DirecTV Fantasy Zone Channel, and NFL.com fantasy.” (See
CAC II 97 (internal quotation marks omitted)).

52a
more than $120,000. (Id.) In addition, Sunday Ticket
prices increase every year, including most recently,
approximately 11.5% from the 2014 to 2015 season.
(Id.) Plaintiffs claim that but for the agreement to pool
the NFL games, each team would create its own
broadcasts and sell those broadcasts on their own,
which would create a competitive marketplace that
would remain profitable for the teams, but would drive
down prices for consumers. (CAC *1 103.) Moreover,
Plaintiffs allege that the NFL’s exclusive distribution
agreement is not required to assure quality of the
broadcast of games, but was “created to artificially
raise the price of Sunday Ticket.” (CAC f 107.)
Plaintiffs also claim that DirecTV participates in
and facilitates the horizontal agreements amongst the
NFL teams. (CAC *J[ 114.) According to Plaintiffs,
DirecTV requires the NFL and the teams to maintain
and expand their exclusive agreement, for example, by
limiting online distribution of live games (though
currently, those who cannot install DirecTV in their
house may access Sunday Ticket online). (CAC % 115.)
Further, the NFL and its teams have licensed Sunday
Ticket to more than a dozen satellite and cable provid­
ers in Canada, which Plaintiffs claim they could also
have done in the United States were it not for
DirecTV’s demands. (Id.)
Plaintiffs aver that the output restrictions have no
procompetitive benefits and that, even if they did, the
same benefits could be achieved through less restric­
tive means. (CAC 1 119.) Plaintiffs contend that NFL
broadcasting rights “are an extraordinarily valuable
commodity.” (CAC % 120.) The Nielsen Company
estimates that the 2014 regular NFL season reached
approximately 202.3 million unique viewers. (Id.) Thus,
Plaintiffs maintain that the NFL would have no prob-

53a
lem maintaining viewership or game attendance without
its horizontal restraint. (CAC <Hcf{ 121-22.) Further,
Plaintiffs allege that the NFL’s exclusive agreement
with DirecTV has “a clear negative impact on competi­
tion, and serves no pro-competitive purpose.” (CAC
f 126.) Instead, Plaintiffs maintain that less restrictive
alternatives could achieve legitimate, procompetitive
goals, such as permitting teams to contract individually
with DirecTV and allowing other distributors to pur­
chase and broadcast Sunday Ticket. (CAC f 127.)
Accordingly, Plaintiffs bring two causes of action
against Defendants: (1) violation of section 1 of the
Sherman Act, (CAC <ft<JI 155-58); and, (2) violation of
section 2 of the Sherman Act, (CAC <I(| 159-63). Specif­
ically, Plaintiffs allege that Defendants have violated
section 1 of the Sherman Act by agreeing to restrain
competition in the licensing and distribution of live
video presentations of NFL games with the purpose
and effect of restraining trade and increasing prices
paid by consumers and advertisers. (CAC 156.) Plain­
tiffs claim that Defendants have violated section 2 by
monopolizing the live video presentation of regular
season NFL games and making DirecTV the only
source for the majority of NFL games. (CAC
16062.)
B. Procedural History
On December 10, 2015, the Judicial Panel on
Multidistrict Litigation transferred the six actions
pending at the time in the Central District of
California and the Southern District of New York, as
well as fifteen tag-along actions, to this Court “for
coordinated or consolidated pretrial proceedings”
under 28 U.S.C. § 1407. (Dkt. No. 1.) On January 29,
2016, Mr. Lippincott filed a Motion to Remand the
action to the Superior Court of California, Sonoma

54a
County, (Dkt. No. 25), which the Court denied on
March 28, 2016, (Dkt. No. 117). On February 1, 2016,
the Court scheduled a Case Management Conference
and set a briefing schedule for a Motion to Consolidate.
(Dkt. No. 27.) The Court held the Case Management
Conference on May 18, 2016, (Dkt. No. 140), and con­
solidated the actions on May 23, 2016, (Dkt. No. 142).
Plaintiffs filed the CAC on June 24, 2016. (See CAC.)
On August 8, 2016, the NFL Defendants filed the
instant Motion to Dismiss, (see Mot.), along with
several exhibits filed under seal, (Dkt. No. 169). On the
same day, the DirecTV Defendants filed a Motion to
Compel Arbitration.6 (Dkt. No. 171.) On September 22,
2016, Plaintiffs filed their Opposition to the instant
Motion, (Dkt. No. 184 (hereinafter, “Opp’n”)), along with
an objection to the exhibits that the NFL Defendants
included along with their Motion, (Dkt. No. 188 (here­
inafter, “Pis.’ Objs.”)). On October 24, 2016, the
NFL Defendants replied. (Dkt. No. 199 (hereinafter,
“Reply”)-) The Court held a hearing on the instant
Motion on February 13, 2017. (Dkt. No. 227.)
II. EXTRINSIC EVIDENCE
As noted above, along with their Motion, the NFL
Defendants included several declarations and exhibits,
arguing that these documents are incorporated by
reference into Plaintiffs’ CAC. See Dkt. No. 169;

6 Because the Court grants the NFL Defendants’ Motion and
dismisses the action, the DirecTV Defendants’ Motion is DENIED
as moot.

55a
Plaintiffs object
to the consideration of these documents when deciding
the instant Motion. (See Pis.’ Objs.)
When considering a motion to dismiss, a court typi­
cally does not look beyond the complaint in order to
avoid converting a motion to dismiss into a motion for
summary judgment. See Mack v. S. Bay Beer Distribs.,
Inc., 798 F.2d 1279, 1282 (9th Cir. 1986), overruled on
other grounds by Astoria Fed. Say. & Loan Ass’n v.
Solimino, 501 U.S. 104 (1991). Notwithstanding this
precept, when deciding a motion to dismiss, a court
may properly “consider documents that are incorpo­
rated by reference but not physically attached to the
complaint if they are central to the plaintiffs claim
and no party questions their authenticity.” Yumul v.
Smart Balance, Inc., 733 F. Supp. 2d 1134, 1137 (C.D.
Cal. 2010). A document is “incorporated by reference
into a complaint if the plaintiff refers extensively to
the document or the documents forms the basis of the
plaintiffs claim.” United States v. Ritchie, 342 F.3d
903, 908 (9th Cir. 2003). “The doctrine of incorporation
by reference may apply, for example, when a plaintiffs
claim about insurance coverage is based on the con­
tents of a coverage plan,... or when a plaintiffs claim
about stock fraud is based on the contents of SEC
filings . . . .” Id. (citations omitted). The Ninth Circuit
has further applied the incorporation by reference
doctrine where the complaint does not mention a docu­
ment, but “depends on the contents of a document, the
defendant attaches the document to its motion to
dismiss, and the parties do not dispute the authentic­
ity of the document, even though the plaintiff does not
explicitly allege the contents of that document in the
complaint.” Knievel v. ESPN, 393 F.3d 1068,1076 (9th
Cir. 2005).

56a
The NFL Defendants allege that Plaintiffs have
incorporated the proffered documents by reference
Plaintiffs argue that the
into their CAC.
CAC does not incorporate the documents by reference,
but rather mentions them only generally and, regard­
less, that none of the proffered exhibits are complete.
(See Pis.’ Objs.) As explained below, the Court agrees
with Plaintiffs as to Exhibits 1 and 2, but finds that
Exhibits 3 and 4 are incorporated by reference.
First, as to Exhibits 1 and 2, the Court finds that it
may not consider these documents here because
Plaintiffs question their authenticity. See Knievel, 393
at 1076

^^^^^Pls.’ Objs. at 5.) The Court agrees. These
appear to be unsigned, incomplete, and are
clearly lacking large portions of their contents. See
Queen’s Med. Ctr. v. Kaiser Found. Health Plan, Inc.,
948 F. Supp. 2d 1131, 1143 (D. Haw. 2013) (refusing
to incorporate only a portion of a contract “when the
entire document may be important in deciding the
issues in this case”); see also Sams v. Yahoo! Inc., 713
F.3d 1175, 1179 (9th Cir. 2013) (explaining that incor­
poration by reference is appropriate where “documents’
authenticity is not contested”). As Plaintiffs have reason­
ably questioned the authenticity of Exhibits 1 and 2,
the Court cannot consider them when deciding the
instant Motion.
As to Exhibits 3 and 4, however,
are central to Plaintiffs’ claims and
Plaintiffs do not appear to reasonably question these
exhibits’ authenticity. First while Plaintiffs do not
explicitly reference the exact contents or details of
I, Plaintiffs’ claims arise in significant
these

57a
art
unlawfully violate the Sherman Act. (See,
e.g., CAC ff 10,11, 39, 59, 92, 93, 96.) While Plaintiffs
do not quote directly from
Plaintiffs explicitly reference

that form the basis of
It is these
Plaintiffs’ claims. Plaintiffs also argue that the NFL
Defendants have not represented that the
|. (Pis.’ Objs. at 1-2 & n.3.) But Plaintiffs
do not explain what portion of
the NFL
Defendants have failed to include. Unlike Exhibits 1
and 2 neither Exhibits 3 nor 4 do not appear to be
|, and they do not appear
missing any portion,
to have been redacted in any way. (See Dkt. Nos. 169-6,
169-7.) Therefore, the Court finds that Plaintiffs’ claims
are based on these documents and Plaintiffs have not
questioned their authenticity. Accordingly, the Court
considers Exhibits 3 and 4 incorporated by reference
into the CAC and will consider them when deciding
the instant Motion.
III. LEGAL STANDARD
Under Rule 8(a), a complaint must contain a “short
and plain statement of the claim showing that the
[plaintiff] is entitled to relief.” Fed. R. Civ. P. 8(a). If a
complaint fails to do this, the defendant may move to
dismiss it under Rule 12(b)(6). Fed. R. Civ. P. 12(b)(6).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim that is plausible on its face.’” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (citation omitted). A
claim is plausible on its face “when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for

58a
the misconduct alleged.” Id. “Factual allegations
must be enough to raise a right to relief above the
speculative level.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555 (2007). Thus, there must be “more
than a sheer possibility that a defendant has acted
unlawfully.” Iqbal, 556 U.S. at 678. “Where a complaint
pleads facts that are ‘merely consistent with’ a defend­
ant’s liability, it ‘stops short of the line between
possibility and plausibility that the plaintiff is entitled
to relief. Id. (quoting Twombly, 550 U.S. at 557).
In ruling on a motion to dismiss for failure to state
a claim, a court should follow a two-pronged approach:
first, the court must discount conclusory statements,
which are not presumed to be true; and then, assum­
ing any factual allegations are true, the court shall
determine “whether they plausibly give rise to entitle­
ment to relief.” See id. at 679; accord Chavez v. United
States, 683 F.3d 1102, 1108 (9th Cir. 2012). A court
should consider the contents of the complaint and its
attached exhibits, documents incorporated into the com­
plaint by reference, and matters properly subject to
judicial notice. Tellabs, Inc. v. Makor Issues & Rights,
Ltd., 551 U.S. 308, 322-23 (2007); Lee v. City of Los
Angeles, 250 F.3d 668, 688 (9th Cir. 2001).
Where a district court grants a motion to dismiss, it
should provide leave to amend unless it is clear that
the complaint could not be saved by any amendment.
Manzarek v. St. Paul Fire & Marine Ins. Co., 519 F.3d
1025,1031 (9th Cir. 2008) (“Dismissal without leave to
amend is improper unless it is clear, upon de novo
review, that the complaint could not be saved by any
amendment.”).

59a
IV. DISCUSSION
A. Plaintiffs’ Section 1 Claim
1. The Nature of the Agreements Here
Plaintiffs’ first claim arises under section 1 of the
Sherman Act. Section 1 provides in relevant part:
Every contract, combination in the form of
trust or otherwise, or conspiracy, in restraint
of trade or commerce among the several States,
or with foreign nations, is declared to be
illegal. Every person who shall make any
contract or engage in any combination of
conspiracy hereby declared to be illegal shall
be deemed guilty of a felony ....
15 U.S.C. § 1; see also Thurman Indus., Inc. v. Pay W
Pak Stores, Inc., 875 F.2d 1369, 1373 (9th Cir. 1989)
(explaining that section 1 “prohibits conspiracies
and agreements that unreasonably restrain trade”).
However, “not every agreement that restrains compe­
tition violates the Sherman Act; rather, to be unlawful,
the agreement must unreasonably restrain competition.”
Kingray, Inc. v. NBA, Inc., 188 F. Supp. 2d 1177, 1187
(S.D. Cal. 2002) (citing McDaniel v. Appraisal Inst.,
117 F.3d 421, 422 (9th Cir. 1997)). “In analyzing
the reasonableness of an agreement under § 1, the
Supreme Court has distinguished between agreements
made up and down a supply chain, such as between a
manufacturer and a retailer (Vertical agreements’),
and agreements made among competitors ('horizontal
agreements’).” In re Musical Instruments & Equip.
Antitrust Litig., 798 F.3d 1186, 1191 (9th Cir. 2015);
see also Nat’l Collegiate Athletic Ass’n v. Bd. ofRegents
of Univ. of Okla., 468 U.S. 85, 99 (1984) (defining a
horizontal restraint as “an agreement among competi-

60a
tors on the way in which they will compete with one
another”).
“The unreasonableness of the agreement is analyzed
under either a per se rule of illegality or a rule of
reason analysis.” Id. Per se violations are those that,
on their face, have no purpose other than to stifle or
restrict competition and decrease output. See Rickards
(D.A.) v. Canine Eye Registration Found., 783 F.2d
1329, 1332 (9th Cir. 1986) (citing Bd. of Regents of
Univ. of Okla., 468 U.S. at 104). “The per se rule . . .
eliminates the need to study the reasonableness of an
individual restraint in light of the real market forces
at work . . . .” Leegin Creative Leather Prods., Inc. v.
PSKS, Inc., 551 U.S. 877,886 (2007). “Classic examples
include agreements among competitors to fix prices,
divide markets, and refuse to deal.” In re Musical
Instruments, 798 F.3d at 1191.
“Agreements that are not presumed unreasonable
under the per se category are analyzed under the ‘rule
of reason’ test.” Kingray, 188 F. Supp. 2d at 1187.
Under the rule of reason test, a plaintiff must estab­
lish three elements: (1) an agreement or conspiracy
between two or more persons or business entities;
(2) through which the persons or entities intend to
harm or restrain competition; and, (3) that actually
does restrain competition. See Thurman Indus., 875
F.2d at 1373. When analyzing a vertical agreement
under the rule of reason test, the court must “take[]
into account the fact that some vertical restraints
may have procompetitive justifications that benefit
consumers.” In re Musical Instruments, 798 F.3d
at 1192. Further, “[p]roving injury to competition
ordinarily requires the claimant to prove the relevant
geographic and product markets and to demonstrate
the effects of the restraint within those markets.”

61a
Thurman Indus., 875 F.2d at 1373; see also Kingray,
188 F. Supp. 2d at 1187 (“An essential element of a
Section 1 violation under the rule of reason is injury to
competition in the relevant market.” (quoting All.
Shippers, Inc. v. S. Pac. Transp. Co., 858 F.2d 567, 570
(9th Cir. 1988)).
a. Whether to View the Agreements as
Separable or as an Interrelated Web
At first glance, Plaintiffs’ section 1 claim appears to
rely on two categories of agreements: (1) horizontal
agreements amongst the NFL Defendants that unlaw­
fully restrains trade by pooling their rights to license
out-of-market broadcasts of live video presentations of
NFL games; and, (2) a vertical exclusive distribution
agreement between the NFL Defendants and the
DirecTV Defendants. (See CAC
155-58.) Plaintiffs
argue, however, that there is no separate horizontal
agreements amongst the NFL teams; rather, “[t]he
agreement with DirecTV is . . . an agreement between
a firm that offers out-of-market games and a horizon­
tal combination of teams.” (Opp’n at 8.) At oral
argument, Plaintiffs framed their argument slightly
differently and suggested that the agreements could
be considered a hub-and-spoke arrangement. Whether
considered an interrelated web or a hub-and-spoke
conspiracy, however, the Court finds Plaintiffs’ argu­
ment unpersuasive.
“A traditional hub-and-spoke conspiracy has three
elements: (1) a hub, such as a dominant purchaser;
(2) spokes, such as competing manufacturers or
distributors that enter into vertical agreements with
the hub; and (3) the rim of the wheel, which consists
of horizontal agreements among the spokes.” In re
Musical Instruments, 798 F.3d at 1192. In this case, as
Plaintiffs’ counsel explained at oral argument, Plaintiffs

62a
allege that the NFL teams contract with each other to
grant their rights to the NFL, and the NFL, acting as
the teams’ agent, then contracts with DirecTV on the
NFL teams’ behalf. Plaintiffs argue that, therefore, any
agreement between the NFL, its teams, and DirecTV
is “all part and parcel of one overall agreement.”7 But
based on Plaintiffs’ allegations and their explanation
of the agreements at issue here, they have not alleged
the existence of any spokes—i.e., competing “manufac­
turers” (i.e., NFL teams) who enter into agreements
with a “hub” (i.e., DirecTV). Likewise, there appears
to be no interrelated web of agreements. Rather,
Plaintiffs concede that the NFL teams enter into an
agreement with the NFL, and it is the NFL who enters
into an agreement with DirecTV. Therefore, this is not
a hub-and-spoke situation or a situation where there
is a web of interrelated agreements; instead there are
two categories of agreements: a horizontal agreement
(or agreements) amongst the NFL teams (as competi­
tors with one another) and the NFL, and a vertical
agreement between the NFL and DirecTV (as an agree­
ment that goes up and down the supply chain), with
no direct involvement from the NFL teams. A hub-andspoke scenario or an inseparable web of agreements
might arise if the NFL teams directly contracted with
the NFL while simultaneously contracting with DirecTV
on their own behalf; but that is not the situation
7 Though Plaintiffs have cited no authority for how to define a
“web” of interrelated agreements, at oral argument, Plaintiffs
discussed the “symbiotic” nature of the agreements, explaining that
the agreements benefit both DirecTV and the NFL. Nonetheless,
even if the agreements are symbiotic and, when taken together,
form one overarching intent to control the broadcasts of NFL
games, this does not change the Court’s conclusion that, for
antitrust purposes, the Court should examine each portion of the
overall agreement separately.

63a
here. Accordingly, the Court disagrees with Plaintiffs’
characterization that the agreements at issue here are
one interrelated, inseparable web of agreements or a
hub-and-spoke conspiracy.8
The Ninth Circuit has noted that “the line between
horizontal and vertical restraints can blur.” In re
Musical Instruments, 798 F.3d at 1192. Thus, where,
as here, one alleged conspiracy may involve multiple
types of agreements, or different relationships within
one agreement, a court is required to break the con­
spiracy “into its constituent parts,” and analyze “the
respective vertical and horizontal agreements . . .
either under the rule of reason or as violations per se.”
Id. Moreover, in In re Musical Instruments, the Ninth
Circuit noted that “homespun metaphors for complex
economic activities go only so far.” Id. “Section 1 pro­
hibits agreements that unreasonably restrain trade,
no matter the configuration they take or the labels we
give them.” Id. In fact, “[a] hub-and-spoke conspiracy
is simply a collection of vertical and horizontal agree­
ments.” Id. “And once the conspiracy is broken into its
constituent parts, the respective vertical and horizon­
tal agreements can be analyzed either under the
8 To the extent Plaintiffs cite other cases in which courts have
analyzed similar “webs” of agreements, the Court finds these
cases support the proposition that agreements should be analyzed
separately based on their constituent parts. See Laumann v. Nat’l
Hockey League, 907 F. Supp. 2d 465, 485-88 (S.D.N.Y. 2012)
(analyzing a variety of horizontal and vertical agreements amongst
sports teams, professional sports leagues, regional sports networks,
and MVPDs separately though the plaintiffs alleged “a multi­
level conspiracy”); Shaw v. Dali. Cowboys Football Club, Ltd., No.
CIV.A. 97-5184, 1998 WL 419765, at *3 (E.D. Pa. June 23, 1998),
affd 172 F.3d 299 (3d Cir. 1999) (noting that the plaintiffs’
allegations challenged only “an agreement among the clubs [i.e.,
the NFL teams] and the NFL” to raise prices and limit output).

64a
rule of reason or as violations per se.” Id. Thus, even
if Plaintiffs were correct and the agreements here
constituted a hub-and-spoke conspiracy or a web of
agreements between the parties, the Ninth Circuit has
instructed that where there are multiple agreements
involved, the court is to analyze each separately.
Therefore, the Court will analyze the horizontal agree­
ments amongst the NFL teams and the NFL (as one
category) and the vertical agreement between the NFL
and DirecTV (as a second category) separately under
any circumstance.
b. Whether the Rule of Reason or the Per
Se Rule Applies
Courts have applied the rule of reason test both
when examining horizontal agreements amongst pro­
fessional sports teams and when examining vertical
agreements. See O’Bannon u. Nat’l Collegiate Athletic
Ass’n, 802 F.3d 1049, 1069 (9th Cir. 2015) (explaining
that agreement amongst athletic associations should
be analyzed under the rule of reason rather than
applying a per se rule); In re Musical Instruments, 798
F.3d at 1191 (holding that vertical agreements are
analyzed under the rule of reason); see also Bd. of
Regents ofUniv. ofOkla., 468 U.S. at 101 (applying the
rule of reason when addressing an agreement amongst
NCAA athletic teams because the agreement “involves
an industry in which horizontal restraints on competi­
tion are essential if the product is to be available at
all”). Thus, both the horizontal agreements between
the NFL teams and the NFL and the vertical agree­
ment between the NFL and DirecTV are analyzed
using the rule of reason test.9 Accordingly, the Court
9 Moreover, it appears that Plaintiffs agree with this conclu­
sion, as they do not allege in the CAC, do not argue in their

65a
applies the rule of reason test here and examines the
anticompetitive effects of the agreements along with
the justifications for those effects. The Court will first
address the vertical agreement between the NFL and
DirecTV and will then turn to the horizontal agree­
ments amongst the NFL and the NFL teams.
2. The Vertical Agreement Between DirecTV
and the NFL
As to the vertical agreement between the NFL and
DirecTV, the NFL Defendants argue that Plaintiffs
have failed to state a viable claim because Plaintiffs do
not have antitrust standing to challenge the agree­
ment and because Plaintiffs have failed to adequately
allege facts indicating that any agreement between
Defendants has an anticompetitive effect. The Court
will address each argument in turn.
a. Whether Plaintiffs Have Antitrust
Standing
First, the NFL Defendants argue that Plaintiffs lack
antitrust standing to challenge the vertical agreement
between DirecTV and the NFL. Plaintiffs are seeking
to recover damages against Defendants pursuant to
section 4 of the Clayton Act. (See CAC f 21); see also
15 U.S.C. § 15(a) (“[A]ny person who shall be injured
in his business or property by reason of anything
forbidden in the antitrust laws may sue therefor . . .
and shall recover threefold the damages by him
sustained, and the cost of suit, including a reasonable
attorney’s fee.”). “[I]n order to have standing to bring
an antitrust claim, a plaintiff ‘must prove antitrust
injury, which is to say injury of the type the antitrust
Opposition, and did not argue at oral argument that the per se
rule should apply. (See CAC; Opp’n.)

66a
laws were intended to prevent and that flows from that
which makes defendants’ acts unlawful.’” NovationVentures, LLC v. JG Wentworth Co., 156 F. Supp. 3d
1094, 1100 (C.D. Cal. 2015) (quoting Brunswick Corp.
v. Pueblo Bowl-O-Mat, Inc., 429 U.S. 477, 489 (1977)).
To establish antitrust standing, a plaintiff must “be
a participant in the same market as the alleged
malefactors,” and the plaintiff must “have suffered its
injury in the market where competition is being
restrained.” Am. Ad Mgmt., Inc. v. Gen. Tel. Co. of
Cal., 190 F.3d 1051, 1057 (9th Cir. 1999). “In deter­
mining whether a plaintiff has antitrust standing,
courts must evaluate the plaintiffs harm, the alleged
wrongdoing by the defendants, and the relationship
between them.” Kingray, 188 F. Supp. 2d at 1198
(internal quotation marks omitted).
The NFL Defendants argue that Plaintiffs’ alleged
injury—inflated prices for the purchase of live NFL
game broadcasts—occurs in a different market than
the vertical agreement between DirecTV and the NFL.
(Mot. at 19-20.) “Parties whose injuries, though flowing
from that which makes the defendant’s conduct unlaw­
ful, are experienced in another market do not suffer
antitrust injury.” Am. Ad Mgmt, 190 F.3d at 1057.
Here, Plaintiffs allege that the relevant market is
“the live video presentations of regular season NFL
games.” (CAC % 53.) According to the NFL Defendants,
consumers purchasing live broadcasts of NFL games
occurs in a different market than the sale of those
broadcast rights at the distribution level. The Court
disagrees; rather, they are two sides of the same coin.
The NFL Defendants attempt to define the two sep­
arate markets as “broadcast rights” and as “live video
presentations,” (Mot. at 19); in other words, the NFL
sells the broadcast rights to the live games to DirecTV,

67a
and then consumers purchase live video presentations
from DirecTV. However, the more appropriate defini­
tion of the relevant market is the “broadcast rights
for live video presentations.” DirecTV purchased the
exclusive distributorship of broadcast rights from the
NFL, which then becomes the live video presentations
that Plaintiffs as consumers access by purchasing
Sunday Ticket. Thus, DirecTV participates in the
market at the distributorship level, and Plaintiffs
participate in the same market at the consumer level.
Consequently, the Court finds that Plaintiffs partici­
pate in the same market as the alleged unlawful
agreements in this case and, therefore, have standing
to sue under the Clayton Act. Therefore, the Court
finds that Plaintiffs have antitrust standing to chal­
lenge the vertical agreement between DirecTV and
the NFL.
b. Whether Plaintiffs Have Alleged
Facts Indicating that the Vertical
Agreement is Anticompetitive
The NFL Defendants also contend that Plaintiffs
have not adequately pleaded facts indicating that the
vertical agreement between DirecTV and the NFL is
anticompetitive. First, the NFL Defendants argue that
the NFL-DirecTV exclusive distribution agreement is
insufficient, on its own, to establish an antitrust viola­
tion. (Mot. at 5.) The NFL Defendants also argue that
by offering Sunday Ticket through a single distributor,
the NFL has incentivized DirecTVs substantial invest­
ment in innovation and promotion to make Sunday
Ticket more appealing to consumers. (Id.) Plaintiffs,
on the other hand, maintain that exclusive distributor­
ships are only lawful where they promote interbrand
competition and, according to Plaintiffs, here, the
agreement between the NFL and DirecTV prevents

68a
interbrand competition by preventing viewership com­
petition between different games. As a result, the
exclusive distributorship is unlawful. (See Opp’n at 12.)
“[A]n agreement between a manufacturer and a
distributor to establish an exclusive distributorship is
not, standing alone, a violation of antitrust laws, and
in most circumstances does not adversely affect compe­
tition in the market.” Rutman Wine Co. v. E. & J.
Gallo Winery, 829 F.2d 729, 735 (9th Cir. 1987).
In fact, some courts “have noted that ‘exclusive dis­
tributorship arrangements are presumptively legal.’”
E&L Consulting, Ltd. v. Doman Indus. Ltd., 472 F.3d
23, 30 (2d Cir. 2006) (citation omitted). This is because
once an entity has a monopoly in an industry—as the
NFL does with professional football here—“there is no
additional monopoly profit to be made by creating a
monopoly in the retail distribution of the product.” Id.
On the contrary, “a monopolist would prefer multiple
competing buyers unless an exclusive distributorship
arrangement provides other benefits in the way of,
for example, product promotion or distribution.” Id.
Further, if the only effect on competition is that a
consumer is required to purchase out-of-market NFL
games from DirecTV as the only distributor at artifi­
cially inflated prices, this effect does not constitute
a Sherman Act violation because the NFL, as the
monopolist of professional football, could achieve the
same results with or without the aid of a distributor.
See id. Therefore, “[f] or an antitrust violation to occur,
the exclusive agreement must intend to or actually
harm competition in the relevant market.” Kingray,
188 F. Supp. 2d at 1196-97.
Plaintiffs argue that the exclusive distributorship
agreement between the NFL and DirecTV is anti­
competitive because it reduces output, which thereby

69a
drives up prices, harms consumers and competition,
and is not counterbalanced by sufficient procompetitive effects. (See Opp’n at 7-16.) The Court will first
address whether the agreement reduces output, then
will address whether the agreement artificially inflates
prices, and, finally, whether the agreement results in
any procompetitive effects.
i. Whether the Agreement Reduces
Output
The parties dispute whether the exclusive distri­
bution agreement increases or decreases output.
Defendants argue that Sunday Ticket has increased
output, because prior to the creation of Sunday Ticket,
viewers were unable to watch any out-of-market Sunday
afternoon games. {See Mot. at 13-14.) But Plaintiffs
claim that Sunday Ticket—and the exclusive distrib­
utorship between DirecTV and the NFL—limits output,
because it prevents other over-the-air broadcasts from
broadcasting the out-of-market games that are exclu­
sively broadcast through Sunday Ticket. (See Opp’n
at 9.) According to Plaintiffs, if Sunday Ticket were not
the exclusive method by which out-of-market games
could be broadcast, “other competitive market options
would have increased output further.” (Opp’n at 9-10.)
Thus, this dispute turns on the proper definition of
“output.” Plaintiffs argue that the Court should con­
sider “output” to be the number of broadcasts of Sunday
afternoon NFL games. (See Opp’n at 9-10.) The Court
disagrees, and finds the Supreme Court’s decision in
Board of Regents of University of Oklahoma instruc­
tive. In Board of Regents of University of Oklahoma,
the National Collegiate Athletic Association (“NCAA”)
implemented a television broadcasting plan in order to
protect attendance of NCAA football games. See Bd. of
Regents ofUniv. of Okla., 468 U.S. at 91-94. After the

70a
College Football Association (“CFA”), an organization
created to protect the interests of major college football
teams, negotiated its own arrangement with NBC to
broadcast additional games and increase the revenues
of CFA members, the NCAA announced that it would
take disciplinary action against any college that com­
plied with the CFA-NBC agreement. Id. at 94-95.
Under the NCAA’s broadcasting plan, the NCAA
“limit [ed] the total amount of televised intercollegiate
football and the number of games that any one team
may televise,” such as by limiting any NCAA institu­
tion to six total television appearances (and four
nationally) throughout the entire season. Id. at 94.
The Supreme Court held that “[t]he anticompetitive
consequences of this arrangement” were apparent,
because prices were “higher and output lower than
they would otherwise be.” Id. at 10607 (emphasis
added). Accordingly, the Court found the NCAA’s
broadcasting plan and conduct in disciplining those
who participated in the CFA-NBC plan constituted a
section 1 violation.10 Id. at 120.
10 At oral argument, the NFL Defendants’ counsel cited
Brantley v. NBC Universal, Inc., 675 F.3d 1192 (9th Cir. 2012),
when discussing whether the agreement between DirecTV and
the NFL limits output. Brantley, however, does not discuss the
definition of output; rather, in Brantley, the Ninth Circuit
addressed a section 1 claim in which a putative class argued that
television programmers should be compelled to sell each cable
channel separately, rather than as packages. See id. at 1195. The
court held that this tying arrangement (i.e., an arrangement
where a consumer is required to purchase a product along with a
bundle of other products) was not anticompetitive. Id. at 1199,
1204. The Ninth Circuit explained that “[e]ven vertical agree­
ments that directly prohibit retail price reductions, eliminating
downward competitive pressure on price and thereby resulting in
higher consumers prices ... are not unlawful absent a showing of
actual anticompetitive effect,” and the plaintiffs had failed to

71a
Thus, the limit on output identified in Board of
Regents of University of Oklahoma was a limit on the
ability to broadcast games at all. See id. at 106-07.
In this case, however, there is not a similar blanket
rule or policy that altogether prevents the television
broadcasting of certain games. In fact, under the
allegations in Plaintiffs’ CAC, it does not appear that
any NFL team is limited to only having a certain
number of its games broadcast or altogether prevented
from having any of its games broadcast. (See CAC
% 84.) Therefore, unlike Board of Regents of University
of Oklahoma, there is no limit on output, i.e., no
requirement that certain games not be broadcast at
all; on the contrary, all NFL Sunday afternoon games
are broadcast—there are merely limitations placed on
where these games are broadcast and on who may
broadcast them. Accordingly, the Court disagrees with
Plaintiffs’ definition of output as being the number of
broadcasts, and finds instead that the proper defini­
tion of output and, more specifically, limitations on
output, is whether the agreement prevents certain
games from being broadcast at all. Under this defini­
tion, unlike Board ofRegents of University of Oklahoma,
there is no limit on output in this case.
This conclusion is further supported by the decisions
of other courts. For instance, in Kingray, the plaintiffs
brought a proposed class action alleging that an agree­
ment between the National Basketball Association
allege any actual harm to competition. Id. at 1202. The court did
not address whether the television programmers had limited
output in the way it is relevant here (i.e., by limiting the number
of television broadcasts or television viewership). Thus, while
Brantley is relevant, as explained below, to whether Plaintiffs
have adequately alleged harm to competition, it provides no
illumination regarding the proper definition of output. .

72a
(“NBA”) and DirecTV to broadcast all out-of-market
basketball games via the “NBA League Pass” (the
NBA equivalent of Sunday Ticket) violated section 1 of
the Sherman Act. Kingray, 188 F. Supp. 2d at 118384. One of the plaintiffs’ proffered theories was that
the NBA League Pass restricted output of broadcast
NBA games, because under the terms of the agree­
ment between the NBA and DirecTV, certain games
were “blacked out” and not broadcast in some areas to
protect the territories of local NBA teams. See id. at
1192. The court disagreed with the plaintiffs, because
“the NBA-DirecTV contract provides that every
NBA game that is ‘blacked out’ is otherwise available
via free local over-the-air broadcasts or via local and
national cable channels.” Id. Thus, the court found
that “output has not been restricted”; instead, the
blackout provision “only affects what channel the
game is available on.” Id. at 1192, 1194; see also Chi.
Profl Sports Ltd. P’ship v. Nat’l Basketball Ass’n, 961
F.2d 667, 670 (7th Cir. 1992) (“Only a reduction in
output allows producers to raise price. If the league
arranges for the broadcast of every game (or if the
clubs may broadcast every game the league does not),
there is no reduction in output.”).
At oral argument, Plaintiffs’ counsel argued that
“output” should be measured by “viewership,” i.e., “the
availability of viewers to see the games.” Even using
this definition of output, however, it is not clear that
Sunday Ticket and the exclusive distribution agree­
ment between DirecTV and the NFL limits output.
For example, the Kingray court noted that rather
than diminishing output, NBA League Pass actually
increased output, because prior to NBA League Pass’s
creation in the 1990s, “out-of-market games were not
available to the public.” Kingray, 188 F. Supp. 2d at
1195. Thus, “[i]n contrast to the plan in [Board of

73a
Regents of University of Oklahoma] which limited
the number of broadcasts permitted, beginning in the
1994-95 season, the NBA League Pass has made
available for purchase ‘up to forty out-of-market
regular season NBA games per week and more than
1000 regular season games per year.’ Id. (citation
omitted). The same analysis applies here. Plaintiffs
allege that, beginning in 1994, “pursuant to its exclusive
agreement with the NFL, DirecTV offered its subscrib­
ers access to the Sunday afternoon games that were
not otherwise available in their market via national
broadcasts.” (CAC f 89.) In other words, while viewers
would have had access to no more than three NFL
Sunday afternoon games broadcast in any given
broadcasting market, through Sunday Ticket, viewers
may now access as many as thirteen games being
played on Sunday afternoons—games which, before
Sunday Ticket, would have gone unseen outside of
the local broadcast market. (See CAC ‘H 85.) Thus,
Sunday Ticket has also increased the availability—or
viewership—of out-of-market games.
Plaintiffs argue that the realities of the situation
mean that if the exclusive agreement between
DirecTV and the NFL was made non-exclusive, “each
team would have an incentive to distribute its games
nationally in these channels,” and that “[Oven the
relatively low cost of internet streaming and satellite
and cable television carriage, each team acting inde­
pendently would offer their games at a competitive
price to anybody in the country who wanted to watch
that particular team.” (CAC f 6.) However, as addressed
further below, (see discussion infra section IV.A.3.b.),
each game involves the collective intellectual property
rights of multiple entities. Therefore, it may be that the
only way to ensure that each game is broadcast is to
allow the NFL and its teams to pool their collective

74a
broadcasting rights and establish an exclusive broad­
casting agreement, ultimately increasing output.
Therefore, because limitations on “output” occur
when an agreement altogether prevents the broadcast
of a game—which does not occur here—Plaintiffs have
failed to establish that the exclusive distributorship
arrangement between DirecTV and the NFL reduces
output. Even assuming output was measured by viewership, as Plaintiffs suggest, because Sunday Ticket
has increased access to out-of-market games, it has
also increased viewership and, thus, Plaintiffs have
not established that the agreement limits output
under this definition.
ii. Whether the Vertical Agreement
Artificially Inflates Prices
Second, as to Plaintiffs’ allegations that the exclu­
sive distributorship agreement results in inflated prices
for Sunday Ticket, “allegations that an agreement has
the effect of reducing consumers’ choices or increasing
prices to consumers does not sufficiently allege an
injury to competition. Both effects are fully consistent
with a free, competitive market.” Brantley, 675 F.3d at
1202; see also Pioneer Family Invs., LLC v. Lorusso,
No. CV 14-00594-PHX-PGR, 2014 WL 2883058, at *6
(D. Ariz. June 25, 2014) (finding that plaintiff failed
to plead a viable Sherman Act claim where “the only
alleged injury to competition is increased prices and
reduced consumer choice” (quoting Orchard Supply
Hardware LLC v. Home Depot USA, Inc., 939 F. Supp.
2d 1002, 1011 (N.D. Cal. 2013))). Thus, the mere fact
that DirecTV may be charging inflated prices for
Sunday Ticket does not, on its own, constitute harm to
competition. Accordingly, the Court finds Plaintiffs’
allegations of price inflation unavailing.

75a
iii. Other Procompetitive Effects of
the Vertical Agreement
Moreover, the Court finds that there are other,
various procompetitive effects that arise from an exclu­
sive distributorship agreement. The NFL Defendants
argue, for instance, that exclusivity encourages DirecTV’s
“substantial investment in innovation and promotion
to make Sunday Ticket appealing to consumers.” (Mot.
at 5.) Plaintiffs argue the opposite, because DirecTV
merely “packages and sells telecast received from the
networks that had already created those telecasts
for regional broadcast.” (Opp’n at 13.) According to
Plaintiffs, “[m]illions of subscribers to other MVPDs
would subscribe to out of market games if they were
available on their services.” (Id.) However, the Court
finds that Plaintiffs oversimplify the product that is
“Sunday Ticket.” While the out-of-market games
themselves are broadcast through DirecTV’s product,
there are other facets of Sunday Ticket, such as “NFL
Sunday Ticket Max,” which includes the “Red Zone
Channel, DirecTV Fantasy Zone Channel, and NFL.
com fantasy.” (See CAC f 97 (internal quotation marks
omitted)). By granting DirecTV the exclusive rights to
out-of-market broadcasts, DirecTV can create, package,
and promote these various products that result in
greater fan access and NFL game exposure.
In addition, DirecTV is required to renegotiate with
the NFL Defendants in several-year increments to
renew their exclusive distributorship arrangement.
(See CAC
95-96.) For example, Plaintiffs’ CAC alleges
that in 2002, another MVPD, InDemand, offered $400
to $500 million for the non-exclusive rights to carry
Sunday Ticket. (CAC 1 95.) The NFL chose, however,
to renew their exclusive agreement with DirecTV. (See
id.) Thus, it does not appear that Sunday Ticket or

76a
incremental exclusive distributorship arrangements
prevent—or necessarily harm—competition, as other
MVPDs have, in fact, competed for the rights to
Sunday Ticket.
Accordingly, the Court finds that Plaintiffs have
failed to plead facts indicating that the vertical exclu­
sive distributorship arrangement between DirecTV
and the NFL Defendants has harmed competition. It
does not appear that the agreement reduces output,
inflated prices on their own do not constitute harm to
competition, and the agreement may, in fact, result in
procompetitive effects. Therefore, Plaintiffs have not
satisfied the third element of a section 1 claim under
the rule of reason test; without harm to competition,
there can be no section 1 violation. See Brantley, 675
F.3d at 1204 (affirming district court’s dismissal of
section 1 claim because “[finjury to competition must
be alleged to state a violation of Sherman Act § 1”);
see also Kingray, 188 F. Supp. 2d at 1196 (dismissing
section 1 claim because the plaintiffs had not adequately
alleged that the NBA League Pass restricted output).
Accordingly, the Court GRANTS the NFL Defendants’
Motion and DISMISSES Plaintiffs’ section 1 claims to
the extent they are based on the vertical agreement
between the NFL and DirecTV.
3. Whether the Horizontal Agreements
Amongst the NFL Defendants is Anti­
competitive
Next, the Court will address Plaintiffs’ section 1
claim as it relates to the horizontal agreements amongst
the NFL and the NFL teams. First, Defendants argue
that the Sports Broadcasting Act (“SBA”), 15 U.S.C.
§ 1291, protects any horizontal agreements between
the NFL teams to allow the NFL to contract with CBS

77a
and Fox to broadcast Sunday afternoon games.11 (Mot.
at 9.) In this case, however, as explained below, the
Court agrees with Plaintiffs that the SBA does not
immunize the NFL’s conduct in selling the rights to its
out-of-market games to DirecTV. Nonetheless, the
Court finds that Plaintiffs still fail to plead a viable
section 1 claim as to the horizontal agreements,
because the collective agreement between the teams
involves intellectual property owned by more than
one entity (i.e., both teams playing any given game)
and thus “constitute [s] ‘collectively owned’ property,”
which requires the NFL Defendants to cooperate in
order to sell the rights. Spinelli v. Nat’l Football
League, 96 F. Supp. 3d 81,114 (S.D.N.Y. 2015) (altera­
tion and citation omitted). In addition, the Court finds
that Plaintiffs lack antitrust standing to challenge the
horizontal agreements. The Court will address each
argument.
a. Whether the SBA Immunizes the
Agreement Between the NFL and the
NFL Teams
The SBA, enacted in 1961, exempts professional
sports from the antitrust laws “for joint marketing of
television rights.” Bd. of Regents of Univ. of Okla.,
468 U.S. at 104 n.28; see also 15 U.S.C. § 1291. As
the Supreme Court has noted, “[t]he legislative history
of this exemption demonstrates Congress’ recognition
that agreements among league members to sell televi­
sion rights in a cooperative fashion could run afoul of
the Sherman Act.” Id. However, by passing the SBA,

11 The NFL Defendants conceded at oral argument that they
do not argue the SBA protects the vertical agreement between
the NFL and DirecTV.

78a
it appears that Congress attempted to immunize this
potentially anticompetitive conduct in certain situations.
It is undisputed that the SBA applies only to
“network broadcast television and does not apply to
non-exempt channels of distribution such as cable tele­
vision, pay-per-view, and satellite television networks.”
Kingray, 188 F. Supp. 2d at 1183. Thus, Plaintiffs
argue that, because the NFL agrees to broadcast certain
games for certain viewers only on paid-for satellite
television, the SBA does not apply. (CAC <1 147-54;
Opp’n at 8-9.) The NFL Defendants, however, argue
that Sunday Ticket merely rebroadcasts coverage
that was initially broadcast on free, over-the-air
television—namely, CBS and Fox—and, thus, is
protected by the SBA. (Mot. at 8-10.) The Court agrees
with Plaintiffs.
“The Supreme Court construes exceptions to the
antitrust laws narrowly.” Shaw, 1998 WL 419765, at
*3. Therefore, when analyzing an antitrust exemption
like the SBA, the Court should limit its application
and apply it cautiously. See id. In this case, though
Plaintiffs allege that the Sunday Ticket broadcast
mirrors Fox and CBS broadcasts from throughout
the country, (see CAC % 8), out-of-market consumers
can only access these broadcasts if they subscribe to
DirecTV’s satellite subscription service, (see CAC % 7).
Thus, the NFL teams have agreed to permit the NFL
to contract on their behalf to broadcast certain games
for some consumers via paid-for broadcasting—which,
as noted above, is not protected by the SBA. See Shaw,
1998 WL 419765, at *5 (holding that Sunday Ticket
was not exempt under the SBA because it involved the
sale of broadcasting to paid-for satellite television).
The fact that some consumers throughout the country
may view the same games for free (but who then, in

79a
turn, cannot access out-of-market games that a differ­
ent consumer may watch for free on over-the-air
television) does not mean that the NFL is only con­
tracting for over-the-air broadcasting services; rather,
the NFL and its teams have agreed to permit the
NFL to contract for both over-the-air broadcasting
and paid-for satellite services.12 Therefore, because
the agreement between the NFL and the NFL teams
encompasses both broadcasts on over-the-air televi­
sion as well as paid-for television, the SBA does not
immunize the horizontal agreements between the
NFL and the NFL teams.
b. Whether the NFL Teams’ Pooling of
Their Broadcast Rights Otherwise
Violates Section 1
However, the Court finds that the NFL teams’
decision to collectively pool their rights still does not
violate the Sherman Act. In coming to this conclusion,
the Court finds two decisions instructive. First, in
Washington v. National Football League, 880 F. Supp.
2d 1004,1005-07 (D. Minn. 2012), the plaintiffs, former
professional football players, alleged that the NFL
violated the antitrust laws when they refused to grant
the plaintiffs the rights to game films and images from
the games in which they played. The plaintiffs relied
12 However, the Court finds that the SBA does protect the NFL
Defendants’ collective decision to limit over-the-air broadcasting
of its games to certain areas. As the Seventh Circuit has noted,
“[u]nless the [SBA] allows the league to bar broadcasting of at
least some games, it is hard to see why it is cast as an exemption
from the antitrust laws.” Chi. Profl Sports, 961 F.2d at 670.
Further, this comports with the language and history of the SBA,
which as explained above, protects professional leagues and their
teams’ collective contracting of over-the-air broadcasting rights.
See 15 U.S.C. § 1291.

80a
on the Supreme Court’s decision in American Needle,
Inc. v. NFL, 560 U.S. 183 (2010), in which the Supreme
Court held that “actions by the NFL and its teams
could constitute concerted action in violation of the
Sherman Act.” Washington, 880 F. Supp. 2d at 1006.
In American Needle, the Supreme Court held that an
entity created by all of the NFL’s teams to make
decisions regarding the teams’ separately owned intel­
lectual property violated section 1. See Am. Needle,
560 U.S. at 201. However, the Washington court held
that American Needle was distinguishable because
“the intellectual property involved [in Washington
was] historical football game footage, something that
the individual teams do not separately own, and never
have separately owned.” Washington, 880 F. Supp. 2d
at 1006. Instead, the NFL owned the footage of the
games, “either alone or in conjunction with the teams
involved in the game being filmed.” Id. Because there
were multiple entities involved, “[t]hese entities must
cooperate to produce and sell these images; no one
entity can do it alone.” Id. Accordingly, Washington
held that while the NFL and its teams may potentially
violate the Sherman Act when they conspire to market
a team’s individually owned property, they do not
violate the Sherman Act when they market “property
the teams and the NFL can only collectively own.” Id.
Second, in Spinelli, 96 F. Supp. 3d at 95, the
plaintiffs, professional photographers, alleged that
the NFL violated the Sherman Act by entering into
exclusive licensing agreements for professional stock
photos. Relying on Washington, the Spinelli court held
that a collective agreement amongst the NFL teams to
exclusively license photos did not violate the Sherman
Act because “many if not most of the photographs at
issue contain intellectual property owned by the NFL
and at least one NFL Club.” Id. at 114. Therefore,

81a
because “[s]uch photographs necessarily contain the
intellectual property of more than one entity, and con­
stitute ‘collectively owned’ property under Washington,”
the entities were required to act collectively to produce
and sell the images and their conduct did not contra­
vene the Sherman Act. Id. (alteration omitted). In
addition, the court also noted that collective licensing
of intellectual property of the NFL-related photo­
graphs was “reasonable as a matter of law because
collective licensing [was] ‘essential if the product is
to be available at all,”’ id. at 114 n.14 (quoting Am.
Needle, 560 U.S. at 203); “without NFL and NFL Club
cooperation, licensees would be unable to obtain from
any one entity the rights to use photographs of NFL
games and events, which exist only by virtue of that
cooperation,” id.
Here, the property at issue is the right to broadcast
NFL games between two NFL teams. In fact, as
Defendants explained at oral argument, broadcasts13
are owned by the NFL, rather than by the NFL teams.
Like the game footage in Washington and the photo­
graphs in Spinelli, the broadcasts of the games here
necessarily involve intellectual property rights owned
by multiple entities, including the NFL and each of the
teams participating in the game. As the Washington
court explained, and the Spinelli court echoed, the
multiple entities must act collectively to broadcast the
games in order for the games to be broadcast at all. As
the Spinelli court acknowledged, this appears to be a
situation where the collective issuing of rights is
13 Game “broadcasts” include not only video footage of the
games, but the camera angles chosen, the graphics displayed,
commentary, game highlights, videotape replays, and crowd
shots. Thus, there are multiple types of intellectual property at
issue here that collectively makeup a single “broadcast.”

82a
reasonable as a matter of law, because if the teams did
not work together collectively, it may be difficult to
determine the appropriate owner of the intellectual
property rights of any given broadcast. See Spinelli,
96 F. Supp. 3d at 114 n.14 (“If a collective license were
not available, a photo-by-photo assessment would be
required to determine who may hold intellectual
property rights in any given photograph, and individ­
ual licensing negotiations would be required for every
single photograph.”); see also Am. Needle, 560 U.S. at
202 (“The fact that NFL teams share an interest in
making the entire league successful and profitable,
and that they must cooperate in the production and
scheduling of games, provides a perfectly sensible jus­
tification for making a host of collective decisions.”).
Because the NFL owns the rights to NFL game
broadcasts, the NFL functions differently than Major
League Baseball (“MLB”) or the National Hockey
League (“NHL”), where the League does not necessarily
own the rights to every game broadcast. Compare
Washington, 880 F. Supp. 2d at 1006 (“Here, unlike in
American Needle, the intellectual property involved is
historical football game footage, something that the
individual teams do not separately own, and never
have separately owned. Rather, the NFL owns the
game footage, either alone or in conjunction with the
teams involved in the game being filmed.”) with
Laumann, 907 F. Supp. 2d at 474 (“In both the NHL
and MLB, each team owns the initial right to control
telecasts of its home games, and keeps the revenues it
generates from the sale of these rights.”). Therefore,
unlike the MLB or the NHL, the NFL must be involved
in the sale of every game’s broadcast rights; without
an agreement between the NFL and its teams, there
would be no way to broadcast the game footage. See
Spinelli, 96 F. Supp. 3d at 114 n.14 (“[W]ithout NFL

83a
and NFL Club cooperation, licensees would be unable
to obtain from any one entity the rights to use photo­
graphs of NFL games and events, which exists only by
virtue of that cooperation.”). As the Court noted in
Spinelli, “the pro-competitive benefits of collectively
licensing intellectual property rights” in NFL property
“are abundantly clear.” Id. Accordingly, the Court finds
that the NFL’s conduct in collectively working with its
constituent teams to enter into exclusive broadcast
agreements of game footage collectively owned by
the NFL and its teams does not violate section 1 of
the Sherman Act because it is not an unreasonable
restraint on trade.
Plaintiffs go one step further and argue that it is not
necessarily the fact that the teams are collectively
working together that violates the Sherman Act, but it
is the content of that agreement that prevents multiple
MVPDs from providing Sunday Ticket (or its equiv­
alent). (See Opp’n at 9-12.) Specifically, Plaintiffs
argue that by placing a cap on the number of Sunday
afternoon games that are available on over-the-air
television, Defendants have violated section 1. (See
Opp’n at 8.) This argument is circular, however, and
leads back to whether the NFL Defendants’ exclusive
vertical agreement with DirecTV constitutes a viola­
tion of section 1, as the Court has already addressed
above.
The Court finds that Plaintiffs have not adequately
alleged facts indicating that the horizontal agree­
ments between the NFL and its teams to collectively
sell the broadcast rights to NFL games constitutes a
section 1 violation.

84a
c. Whether Plaintiffs Have Antitrust
Standing to Challenge the Horizontal
Agreement Between the NFL and Its
Teams
The NFL Defendants next argue that Plaintiffs are
barred from challenging the horizontal agreement
between the NFL and its teams because they are
indirect purchasers. (Mot. at 21-22.) The Court agrees.
In Illinois Brick Co. v. Illinois, 431 U.S. 720,728-29
(1977), the Supreme Court “held that an indirect or
remote purchaser lacks standing to seek damages
against the manufacturer for alleged violations of
federal antitrust laws.” Kingray, 188 F. Supp. 2d at
1198. The Illinois Brick rule “ensures antitrust laws
are enforced by those purchasers who have been most
directly injured by the antitrust violation.” Id. at 1199.
There are several narrow exceptions to this rule, how­
ever: (1) when there is “a preexisting cost-plus contract
with the direct purchaser”; (2) the “co-conspirator”
exception (the only exception relevant here), where an
indirect purchaser “establishes a price-fixing conspiracy
between the manufacturer and the middleman”; (3)
where customers of the direct purchaser own or control
the direct purchaser, or when a “conspiring seller owns
or controls the direct purchaser”; and, (4) “if there is
no realistic possibility that the direct purchaser will
sue. ”14 In re ATM Fee Antitrust Litig., 686 F.3d 741,749
(9th Cir. 2012).
In In re ATM Fee Antitrust Litigation, the Ninth
Circuit discussed indirect purchasing when it examined
14 The Ninth Circuit has expressed doubt as to the clarity of
this fourth exception. See In re ATM Fee Antitrust Litig., 686 F.3d
at 749. This exception is not at issue in this litigation, however;
therefore, the Court need not address it further.

85a
a situation where automated teller machine (“ATM”)
users were charged a “foreign ATM transaction fee”
when they withdrew money from their bank account
at an ATM not owned by their bank. In re ATM Fee
Antitrust Litig., 686 F.3d at 745. When a user withdrew
money at a foreign bank, it generated four fees: (1) one
the user paid to the ATM owner for the use of the ATM;
(2) one the user paid to his or her bank (the foreign
ATM fee); (3) one the bank paid to the ATM network
that routed the transaction (the interchange fee); and,
(4) one the bank paid to the ATM owner. Id. There,
an ATM network, STAR Network, owned hundreds
of thousands of ATMs nationwide. Id. The plaintiffs
alleged that the defendants (including several banks
and the company that acquired STAR Network)
participated in horizontal price fixing by colluding to
fix the ATM network fee, which was then, in turn,
passed on to the consumer in the form of the foreign
ATM fee. Id. at 745-46. The court held that because
the plaintiffs never directly paid the interchange fees,
but only indirectly paid the interchange fees by paying
inflated foreign ATM fees, the plaintiffs were indirect
purchasers who lacked antitrust standing under Illinois
Brick to challenge the horizontal agreement between
the defendants. Id. at 749-50.
In Laumann, the court analyzed a similar theory as
that Plaintiffs proffer here. There, the plaintiffs were
subscribers to television and/or internet services that
broadcast live hockey and baseball telecasts. Laumann,
907 F. Supp. 2d at 472. The plaintiffs brought suit
against the NHL and the MLB, alleging that they had
obtained “centralized control over distribution of live
video programming of hockey and baseball games” and
that they had “agreed not to compete in business
matters related to the video presentation of live majorleague men’s professional hockey and baseball games.”

86a
Id. at 473 (alterations and internal quotation marks
omitted). The plaintiffs also brought suit against
several regional sports networks and MVPDs who
contracted with the NHL and the MLB for the
broadcast rights of their games. Id. at 473-74. Under
the agreements between the Leagues and the regional
sports networks, certain games were shown within
specific geographical territories and blacked out in
other areas. Id. at 474. To obtain the out-of-market
games, consumers had to purchase internet or television
packages controlled by the Leagues from the MVPDs.
Id. at 475. The plaintiffs alleged that the Leagues, the
regional sports networks, and the MVPDs violated
section 1 by agreeing to forbid the broadcast of out-ofmarket games in designated areas and by agreeing
that the NHL/MLB would be the exclusive providers
of all out-of-market games. Id. at 476. The court
explained that, because the plaintiffs purchased pro­
gramming directly from the MVPDs, they were required
to “show why Illinois Brick does not bar their claims
for damages against the remaining defendants.” Id. at
481. Relying on the co-conspirator exception mentioned
above, the court held that because the plaintiffs were
alleging a multi-level conspiracy, as the first purchas­
ers who were not a party to the conspiracy, the plaintiffs
had standing to pursue damages—even against entities
from whom they had not directly purchased the prod­
uct. Id. at 481-83.
Laumann’s holding, however, conflicts in some re­
spects with the Ninth Circuit’s holding in In re ATM
Fee Antitrust Litigation. In In re ATM Fee Antitrust
Litigation, the Ninth Circuit has limited the bound­
aries of the co-conspirator exception to apply “only
when the conspiracy involves setting the price paid by
the plaintiffs.” In re Antitrust ATM Fee Litig., 686 F.3d
at 755; see also Laumann, 907 F. Supp. 2d at 481-82

87a
(explaining that if the court adopted the Ninth
Circuit’s view of the co-conspirator exception, the
plaintiffs would not have had standing). Here, like in
Laumann, Plaintiffs purchased Sunday Ticket directly
from DirecTV as a result of the agreement between the
NFL and DirecTV. (See CAC <fl<][ 89-90.) DirecTV,
however, purchases the rights to the game broadcasts
from the NFL, as a result of the agreement between
the NFL and its teams. (See CAC <R<jI 91-93.) Plaintiffs
do not alle e that the NFL Defendants and DirecTV
cons ired to set a rice for DirecTV15;
Thus, the co-conspirator exception as
defined in In re ATM Fee Antitrust Litigation does not
apply.
Because Plaintiffs are direct purchasers of the
games from DirecTV (which DirecTV may only sell as
a result of the agreement between DirecTV and the
NFL), Plaintiffs have standing to sue for damages
arising from the vertical agreement between DirecTV
and the NFL (as discussed above),. Plaintiffs do
not directly purchase Sunday Ticket from the NFL
Defendants, however, and the co-conspirator exception
does not apply. Accordingly, Plaintiffs do not have
standing to sue the NFL Defendants with respect to
the horizontal agreements. While Plaintiffs urged the
Court at oral argument to follow Laumann and find
that the Illinois Brick bar does not apply in cases that
do not involve price fixing, In re ATM Fee Antitrust
Litigation directly precludes this argument in holding
that the co-conspirator exception does not apply in

15 In fact, Plaintiffs highlighted this point at oral argument
in support of the proposition that Illinois Brick should not bar
claims outside of price-fixing cases.

88a
cases like this.16 Consequently, Plaintiffs have not
overcome the Illinois Brick bar, and their claims
against the NFL Defendants regarding the horizontal
agreements fail for lack of standing. See Kingray, 188
F. Supp. 2d at 1199 (finding that the plaintiffs lacked
standing to sue the NBA and its teams when challeng­
ing agreements between the NBA, its teams, and
television providers to create NBA League Pass because
“Plaintiffs purchased the NBA League Pass from
DirecTV and iN Demand”—not the NBA Defendants).
Therefore, the Court finds that Plaintiffs have not
adequately alleged a section 1 claim as it relates to
the horizontal agreements between the NFL and its
teams. First, the NFL Defendants’ collective action is
protected as it is necessary to produce the game broad­
casts here and, second, Plaintiffs lack antitrust standing
to challenge it, regardless. Accordingly, the Court
GRANTS the NFL Defendants’ Motion and DISMISSES
Plaintiffs’ section 1 claims as they relate to the hori­
zontal agreements between the NFL and its teams.

16 Though Laumann indicated that “where the relationship
between the parties in a multi-tiered distribution chain is such
that plaintiffs are the first or only victims of alleged anticompeti­
tive agreements, the rationale for the Illinois Brick disappears,”
Laumann, 907 F. Supp. 2d at 481, the court nonetheless exam­
ined the co-conspirator exception to the Illinois Brick bar. Therefore,
Laumann does not stand for the proposition that Illinois Brick
does not apply in non-price-fixing cases or in cases involving a
multi-tiered distribution chain. Rather, it stands for a broad
reading of the co-conspirator exception—one that has been
squarely rejected by the Ninth Circuit—that permits claims
involving a multi-tiered conspiracy to proceed despite the Illinois
Brick bar.

89a
4. Whether Plaintiffs
Viable Market

Have

Pleaded

a

Even assuming that Plaintiffs had adequately alleged
prima facie claims for section 1 violations regarding
both the vertical and horizontal agreements here, the
Court finds that Plaintiffs’ claims would fail, regard­
less, because they have not adequately pleaded a
viable relevant market in which Defendants have mar­
ket power. “In order to state a valid claim under the
Sherman Act, a plaintiff must allege that the defendant
has market power within a ‘relevant market.’ That is,
the plaintiff must allege both that a ‘relevant market’
exists and that the defendant has power within that
market.” Newcal Indus., Inc. v. Ikon Office Sol., 513
F.3d 1038, 1044 (9th Cir. 2008). For antitrust pur­
poses, “a product market is typically defined to include
the pool of goods or services that qualify as economic
substitutes because they enjoy reasonable interchangeability of use and cross-elasticity of demand.” Thurman
Indus., Inc., 875 F.2d at 1374. Further, in some cir­
cumstances, “the relevant product market may be
narrowed beyond the boundaries of physical inter­
changeability and cross-price elasticity to account for
identifiable submarkets or product clusters.” Id. “[A]
complaint may be dismissed under Rule 12(b)(6) if the
complaint’s ‘relevant market’ definition is facially
unsustainable.” Newcal Indus., Inc., 513 F.3d at 1045.
Here, Plaintiffs allege that the relevant market is “the
live video presentations of professional football games.”
(CAC n 1, 53.) Plaintiffs also allege that there is a
submarket for the “broadcast rights for out-of-market

90a
games, such as those carried in the NFL Sunday
Ticket package.”17 (CAC % 53.)
a. Whether the Live Presentation of
Professional Football Games is a
Viable Market and Whether the NFL
Defendants Have Restrained Trade
Within that Market
First, the NFL Defendants argue that the live
presentation of professional football games market is
“implausible,” because “it ignores the competition that
the NFL games face from other sports and entertain­
ment products, and it fails to account for the numerous
free in-market broadcasts of NFL games that are
made widely available to consumers.” (Mot. at 14.) The
Court disagrees. Multiple courts have recognized that
a market may be limited to one professional sport,
because these sports (i.e., professional football) have
“limited substitutes from a consumer standpoint.”18
17 Plaintiffs identify the relevant geographic market as the
United States, (CAC ^ 53), which the NFL Defendants do not
appear to dispute.
18 As Plaintiffs point out, this is different than a “single-brand
market.” (See Opp’n at 17 n.18.) If, for instance, Plaintiffs were
alleging that the Los Angeles Rams constituted one market, the
New Orleans Saints constituted another market, and the Denver
Broncos were an entirely separate market, this would likely
constitute an impermissible single-brand market. See Right Field
Rooftops, LLC v. Chi. Baseball Holdings, LLC, 87 F. Supp. 3d
874, 886-87 (N.D. Ill. 2015) (explaining that a market consisting
of live broadcasts of Chicago Cubs games was impermissible,
because “the Cubs necessarily compete with other Major League
Baseball teams, sporting events, and other live entertainment for
revenue”); see also Tanaka v. Univ. ofS. Cal., 252 F.3d 1059,1063
(9th Cir. 2001) (rejecting market composed of the “UCLA women’s
soccer program” because multiple universities competed for college
recruits). Where, as here, Plaintiffs allege that a market consists

91a
L.A. Mem’l Coliseum Comm’n v. Nat’l Football League,
726 F.2d 1381,1393 (9th Cir. 1984); see Bd. of Regents
of Univ. of Okla., 468 U.S. at 111 (holding that
“intercollegiate football telecasts generate an audience
uniquely attractive to advertisers and that competi­
tors are unable to offer programming that can attract
a similar audience”); Laumann, 907 F. Supp. 2d at
492 (accepting definition of “the relevant market as
the market for television broadcasting of professional
hockey and baseball games”). The NFL Defendants
argue that this market definition ignores the possibil­
ity that non-football-related content may compete with
NFL football broadcasts. (Mot. at 15-16.) The Court is
unpersuaded by the NFL Defendants’ argument. It
appears clear that professional sports attract a unique
and specific audience; for instance, many viewers
would not believe a Sunday afternoon marathon of
NCIS, a syndicated drama, or the live broadcast of a
tennis tournament to be a viable alternative to a
Denver Broncos football game. Therefore, Plaintiffs
have properly defined the relevant market as the live
broadcast of professional football games.
Second, the NFL Defendants argue that Plaintiffs
have not established how Defendants restrain the
relevant market because Defendants offer the live
broadcast of multiple games for free every Sunday
afternoon. (Mot. at 16.) In other words, the NFL
Defendants suggest that if the price for out-of-market
games was artificially inflated, viewers would simply
replace the out-of-market game with a free in-market
game instead. Moreover, according to the NFL Defend­
ants, if, on the other hand, different games are not
substitutes for one another, Plaintiffs have failed to
of all teams within a single league, however, this is not a single­
brand market.

92a
establish how selling the broadcast rights to out-ofmarket games would “naturally force prices down.”
(Id.) Plaintiffs argue that these games are not “perfect
substitute [s],” but “are ‘differentiated products,’ mean­
ing that they have different qualities or characteristics
that affect consumer choices.” (Opp’n at 19.)
The Court agrees with the NFL Defendants on this
point. Though Plaintiffs have sufficiently established
the relevant market, they fail to show how Defendants
have restrained trade within that market or have such
significant power as to artificially drive prices up. By
offering free game broadcasts on CBS and Fox, the
NFL Defendants lack the ability to artificially control
out-of-market games pricing because consumers may
choose to view these free games as alternatives to
paid-for out-of-market games, thereby driving market
prices down naturally. If, on the other hand, the outof-market games available only on Sunday Ticket are
not competitive with the other free over-the-air NFL
game broadcasts because consumers desire to view
only certain specific out-of-market games—for example,
a consumer wants to watch only the Denver Broncos
game every week—then Plaintiffs have failed to
establish how selling the rights to all out-of-market
games on the open market would prevent artificial
price inflation. Rather, even if these games were sold
on the open market, because that same consumer
would care about only the Denver Broncos and no
other in-market or out-of-market game would be
an effective substitute for that consumer, whoever
ultimately owned the rights would always have some
ability to artificially control prices, regardless. In that
case, neither the horizontal agreements between the
NFL and the NFL teams nor the vertical agreement
between the NFL and DirecTV would affect artificial
price inflation; whoever owned the rights to any

93a
specific game—whether those rights were obtained
through an exclusive distributorship agreement like
Sunday Ticket or on the free market—could artificially
inflate prices.19 Accordingly, under either scenario,
Plaintiffs have not adequately alleged the existence of
a market in which Defendants have the power to
artificially control pricing or in which selling the rights
on the open market would prevent artificially inflated
pricing.
Therefore, even assuming Plaintiffs adequately pleaded
a prima facie section 1 claim, their section 1 claims
would fail because they have not adequately alleged
the existence of a market in which Defendants have
the power to restrain trade or artificially inflate prices.
b. Whether Plaintiffs Have Pleaded a
Viable Submarket for Out-of-Market
Football Broadcasts
As to the submarket defined as out-of-market
football broadcasts, the Court agrees with the NFL
Defendants that this narrowly-defined market is
inappropriate. “[A]n antitrust plaintiff may not define
19 To the extent Plaintiffs suggest that any exclusive agree­
ment to broadcast out-of-market games violates section 1 (i.e., if
the Denver Broncos as a team exclusively distributed the broad­
cast rights to their games through one channel), and the only
way to avoid antitrust violations is to require non-exclusive
agreements, this argument does not comport with Rutman Wine
and the protections for exclusive distributorships, as explained
above. Rutman Wine Co., 829 F.2d at 735. Moreover, to the extent
Plaintiffs are contending that Defendants have market power in
multiple individual markets for each team, defining the market
by team would result in impermissible single-brand markets,
as discussed above. See Tanaka, 252 F.3d at 1063. Therefore,
regardless of how the alleged market is viewed, Plaintiffs have
not adequately alleged a viable market in which Defendants have
the power to artificially inflate prices.

94a
a market so as to cover only the practice complained
of,” because “this would be circular or at least resultoriented reasoning.” Adidas Am., Inc. v. Nat’l Collegiate
Athletic Ass’n, 64 F. Supp. 2d 1097, 1102 (D. Kan.
1999) (internal quotation marks omitted). Unlike a
market consisting of all live broadcasts of NFL games,
an out-of-market football broadcast market is a posthoc narrowing of the relevant market to cover only
those products over which Plaintiffs allege that
Defendants have control. Further, it is unclear how
out-of-market games would not, by definition, also
compete with in-market games, as addressed above.20
See Queen City Pizza, Inc. v. Domino’s Pizza, Inc., 124
F.3d 430, 436-37 (3d Cir. 1997) (holding that an
antitrust plaintiff must propose a relevant market
that encompasses “all interchangeable substitute pro­
ducts”); TV Commc’ns Network, Inc. v. Turner Network
Television, Inc., 964 F.2d 1022, 1025 (10th Cir. 1992)
(finding that plaintiff failed to allege an adequate
market because it defined the market too narrowly).
Accordingly, the Court finds that Plaintiffs have failed
to adequately plead a sufficient submarket.

20 Plaintiff alleges that out-of-market NFL games are distinct
from in-market games because the out-of-market games cater “to
fans that are not located within the geographical confines of
their favorite teams’ home territories.” (CAC It 53.) However, this
argument, again, is circular, because if that is the case, then it is
unclear how all of the out-of-market games would compete with
each other as they cannot be considered reasonable substitutes
for one another under Plaintiffs’ allegations. Moreover, if Plaintiffs
are arguing that the relevant submarkets for out-of-market
games are defined by team—i.e., that Defendants restrain com­
petition within a submarket of out-of-market Denver Broncos
games—it would then be an impermissible single-brand market,
as noted above. Therefore, the Court finds this allegation insuffi­
cient to establish a relevant submarket.

95a
B. Plaintiffs’ Section 2 Monopolization Claim
Plaintiffs’ second claim arises under section 2 of the
Sherman Act, 15 U.S.C. § 2, and alleges that the NFL
Defendants unlawfully conspired with DirecTV “to
consolidate all licensing rights for live video presenta­
tions of regular season NFL games into a single entity,
with the purpose, intent, and effect of monopolizing
the relevant market and submarket above,” (CAC
1 161). Further, Plaintiffs allege that DirecTV “has
obtained an unlawful monopoly with respect to the
out-of-market Sunday afternoon games available
through its agreements with the NFL and its Teams.”
(Id.) Thus, Plaintiffs have alleged two monopolization
claims: one for conspiracy to monopolize, and one for
actual monopolization. At oral argument, Plaintiffs
conceded that their section 2 claim rises and falls
along with their section 1 claim. Because, as explained
above, Plaintiffs’ section 1 claim fails, their section 2
claim also fails. Nonetheless, in an abundance of
caution, the Court will briefly address Plaintiffs’
section 2 claim.
To establish a conspiracy to monopolize claim,
Plaintiffs must plead: “(1) the existence of a combina­
tion or conspiracy to monopolize; (2) an overt act in
furtherance of the conspiracy; (3) the specific intent to
monopolize; and (4) causal antitrust injury.” Paladin
Assocs., Inc. v. Mont. Power Co., 328 F.3d 1145, 1158
(9th Cir. 2003). As addressed above, Plaintiffs have
failed to adequately plead antitrust injury. Thus,
Plaintiffs’ conspiracy to monopolize claim fails on that
ground alone. See E & L Consulting, 472 F.3d at 31
(dismissing section 2 claim where complaint failed to
establish injury to competition).
In addition, Plaintiffs have failed to establish facts
indicating that Defendants had the specific intent to

96a
monopolize. ‘“The specific intent element requires
proof that the defendant intended his acts to produce
monopoly power’; that is, that the defendant intended
‘to control prices or to restrain competition unreason­
ably.’” Insignia Sys., Inc. v. New Am. Mktg. In-Store,
Inc., 661 F. Supp. 2d 1039, 1062 (D. Minn. 2009)
(quoting Gen. Indus. Corp. v. Hartz Mountain Corp.,
810 F.2d 795, 801 (8th Cir. 1987)); see also Wallach v.
Eaton Corp., 814 F. Supp. 2d 428, 441 (D. Del. 2011)
(defining specific intent to monopolize as “an intent
which goes beyond the mere intent to do the act,” but
rather, as requiring that “the defendant must have
intended to achieve an illegal monopoly”). Plaintiffs
appear to rely entirely on the NFL-DirecTV exclusive
distributorship agreement to establish intent to
monopolize here. {See Opp’n at 24-25.) An exclusive
distributorship agreement on its own, however, does
not establish the specific intent to monopolize. See
Great Escape, Inc. v. Union City Body Co., 791 F.2d
532, 541 (7th Cir. 1986) (“[T]he mere intention to
exclude competition and to expand one’s own business
is not sufficient to show a specific intent to monop­
olize.” (citing Pac. Eng’g & Prod. Co. v. Kerr-McGee
Corp., 551 F.2d 790, 795 (10th Cir. 1977))). Moreover,
while “[s]pecific intent may be inferred from predatory
conduct,” id., Plaintiffs do not allege any facts indicat­
ing predatory conduct or that by granting DirecTV an
exclusive distributorship agreement, the NFL Defendants
explicitly intended to control Sunday Ticket prices,
unreasonably restrain competition, or achieve an
illegal monopoly on the broadcast of live NFL games.
Cf. Wallach, 814 F. Supp. 2d at 441-42 (finding specific
intent where the plaintiff included allegations that the
defendant’s employee had said the defendant intended
to “kill” a competitor’s business). In other words,
the fact that the NFL has a practical monopoly on

97a
professional football in the United States is not
sufficient to establish that they may be liable under
section 2 for a conspiracy to monopolize.
Finally, the NFL Defendants argue that Plaintiffs
have not sufficiently alleged an actual monopolization
claim under section 2. (See Mot. at 24-25.) “To state
a plausible monopolization claim under this provi­
sion requires plaintiff to show: ‘(a) the possession of
monopoly power in the relevant market; (b) the willful
acquisition or maintenance of that power; and (c) causal
antitrust injury.’” Somers v. Apple, Inc., 729 F.3d
953, 963 (9th Cir. 2013) (quoting Allied Orthopedic
Appliances, Inc. v. Tyco Health Care Grp. LP, 592
F.3d 991, 998 (9th Cir. 2010)). Therefore, a required
element of a monopolization claim is antitrust injury.
As addressed above, Plaintiffs have failed to establish
a viable antitrust injury; accordingly, Plaintiffs cannot
state a viable section 2 monopolization claim. Therefore,
the Court GRANTS the NFL Defendants’ Motion and
DISMISSES Plaintiffs’ section 2 claim.
C. Whether to Grant Plaintiffs Leave to Amend
In sum, the Court finds that Plaintiffs’ section 1
claim fails because: Plaintiffs have failed to plead facts
establishing that the vertical agreement between the
NFL and DirecTV harms competition; the horizontal
agreements between the NFL and its teams is not a
section 1 violation because they must cooperate to effec­
tively sell broadcasts of the games and, regardless,
Plaintiffs lack antitrust standing to challenge it; and,
Plaintiffs have not pleaded a viable market. Plaintiffs’
section 2 claim fails for many of the same reasons.
Therefore, the Court GRANTS the NFL Defendants’
Motion and DISMISSES Plaintiffs’ claims.

98a
The question then becomes whether to grant
Plaintiffs leave to amend their Complaint. When
deciding whether to grant leave to amend, the court
considers five factors: bad faith, undue delay, preju­
dice to the opposing party, futility of amendment, and
whether the plaintiff has previously amended the
complaint. See Desertrain v. City of Los Angeles, 754
F.3d 1147, 1154 (9th Cir. 2014). Futility is the only
relevant factor here. In this case, the deficiencies the
Court identified above are not deficiencies that may be
cured by additional facts; rather, Plaintiffs’ allegations
fail as a matter of law as they have alleged facts that,
though detailed and well-pleaded, are legally insuffi­
cient to state a Sherman Act claim. Therefore, the
Court finds that further amendment is unlikely to cure
Plaintiffs’ claims. See Lopez v. Smith, 203 F.3d 1122,
1127 (9th Cir. 2000) (explaining that the district court
should grant leave to amend “unless it determines that
the pleading could not possibly be cured by the allega­
tion of other facts” (internal quotation marks omitted));
see also Manzarek, 519 F.3d at 1031 (“Dismissal
without leave to amend is improper unless it is clear,
upon de novo review, that the complaint could not be
saved by any amendment”); cf. Eminence Capital, LLC
v. Aspeon, Inc., 316 F.3d 1048, 1053 (9th Cir. 2003)
(finding that the court should have granted leave to
amend where it appeared “that plaintiffs had a
reasonable chance of successfully stating a claim if
given another opportunity”).
In fact, there appears to be no way in which
Plaintiffs could amend their Complaint to state a
claim without contradicting their current allegations.
For instance, as explained above, the Court finds that
Sunday Ticket has not limited the output of profes­
sional football games because each NFL team may
broadcast every game. Thus, to adequately plead harm

99a
to output, Plaintiffs would have to allege that
Sunday Ticket does prevent certain games from being
broadcast—a contradiction the law does not permit in
amended pleadings. See Reddy v. Litton Indus., Inc.,
912 F.2d 291, 296-97 (9th Cir. 1990) (refusing to grant
leave to amend where the only way to adequately
plead a claim was to contradict current allegations).
Therefore, Plaintiffs’ claims are DISMISSED WITH
PREJUDICE.
V. CONCLUSION
For the foregoing reasons, the NFL Defendants’
Motion to Dismiss is GRANTED. Plaintiffs’ claims
are DISMISSED WITH PREJUDICE. The DirecTV
Defendants’ pending Motion to Compel Arbitration is
DENIED as moot. Defendants are ORDERED to file a
proposed judgment in compliance with this Order no
later than Monday, July 10, 2017 by 4:00 p.m.
IT IS SO ORDERED.
Initials of Preparer

cw

